<html>
<title> - DIET, PHYSICAL ACTIVITY, DIETARY SUPPLEMENTS, LIFESTYLE AND HEALTH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   DIET, PHYSICAL ACTIVITY, DIETARY SUPPLEMENTS, LIFESTYLE AND HEALTH
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2002

                               __________

                           Serial No. 107-109

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                       U. S. GOVERNMENT PRINTING OFFICE
81-866                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2002....................................     1
Statement of:
    Coates, Paul M., Ph.D., Director, Office of Dietary 
      Supplements, National Institutes of Health; and William 
      Dietz, M.D., Director, Division of Nutrition and Physical 
      Activity, Centers for Disease Control and Prevention.......   127
    Ladd, Diane, actress, film director, certified nutritional 
      consultant, Ojai, CA.......................................    32
    Seckman, David, executive director and CEO, National 
      Nutritional Foods Association; George Bray, M.D., Boyd 
      professor, Pennington Biomedical Research Center, Louisiana 
      State University; Larry Kushi, associate director for 
      etiology and prevention research, division of research, 
      Kaiser Permanente; Pamela Peeke, M.D., assistant clinical 
      professor of medicine, University of Maryland School of 
      Medicine, adjunct senior scientist, National Institutes of 
      Health; Timothy S. Church, M.D., senior associate director, 
      medical and laboratory director, division of epidemiology 
      and clinical applications, the Cooper Institute; and David 
      Heber, M.D., director, division of clinical nutrition, 
      University of California at Los Angeles....................    59
Letters, statements, etc., submitted for the record by:
    Bray, George, M.D., Boyd professor, Pennington Biomedical 
      Research Center, Louisiana State University, prepared 
      statement of...............................................    72
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Church, Timothy S., M.D., senior associate director, medical 
      and laboratory director, division of epidemiology and 
      clinical applications, the Cooper Institute, prepared 
      statement of...............................................   105
    Coates, Paul M., Ph.D., Director, Office of Dietary 
      Supplements, National Institutes of Health, prepared 
      statement of...............................................   130
    Dietz, William, M.D., Director, Division of Nutrition and 
      Physical Activity, Centers for Disease Control and 
      Prevention, prepared statement of..........................   141
    Heber, David, M.D., director, division of clinical nutrition, 
      University of California at Los Angeles, prepared statement 
      of.........................................................   112
    Kushi, Larry, associate director for etiology and prevention 
      research, division of research, Kaiser Permanente, prepared 
      statement of...............................................    84
    Ladd, Diane, actress, film director, certified nutritional 
      consultant, Ojai, CA, prepared statement of................    38
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    63
    Peeke, Pamela, M.D., assistant clinical professor of 
      medicine, University of Maryland School of Medicine, 
      adjunct senior scientist, National Institutes of Health, 
      prepared statement of......................................    99
    Schrock, Edward L., a Representative in Congress from the 
      State of Virginia, article entitled, ``The Million Pound 
      Challenge''................................................    21
    Seckman, David, executive director and CEO, National 
      Nutritional Foods Association, prepared statement of.......    63
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    61
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................   158


   DIET, PHYSICAL ACTIVITY, DIETARY SUPPLEMENTS, LIFESTYLE AND HEALTH

                              ----------                              


                        THURSDAY, JULY 25, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:29 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Schrock, Maloney, 
Norton, Cummings, Kucinich, and Tierney.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; S. 
Elizabeth Clay, professional staff member; Blaine Rethmeier, 
communications director; Allyson Blandford, staff assistant; 
Robert A. Briggs, chief clerk; Joshua E. Gillespie, deputy 
chief clerk; Robin Butler, office manager; Elizabeth Crane, 
deputy communications director; Corinne Zaccagnini, systems 
administrator; Sarah Despres, minority counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. Good morning.
    A quorum being present, the Committee on Government Reform 
will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record, and without objection, so ordered.
    Let me start by saying we will probably have Members 
wandering in with their shirttails hanging out and their ties 
not tied because we ran until 2:30 a.m. As a matter of fact, is 
there anybody in the audience? I can't see yet. In any event, 
this is going to be a very busy day. Members are trying to get 
their offices all squared away so they can head for the August 
recess and district work period. As a result, we will have 
people coming in and out. We may be interrupted for several 
votes on the floor. We will probably have votes coming in a 
series of two, three or four. Representative Schrock and others 
probably will take the chair from time to time because I will 
have to go down and speak probably this afternoon on the 
homeland security issue since our committee had primary 
jurisdiction over that when we were marking up the bill.
    For those of you who will be wondering why we are running 
in and out and why we all look bloodshot eyed and tired, that 
is why.
    Health care oversight activities have been a high priority 
for this committee during my tenure as chairman. I firmly 
believe that as we enter the 21st century we have the 
opportunity to change the landscape of health care and delivery 
of services.
    Health care costs are skyrocketing. The national health 
expenditures are projected to reach $2.8 trillion in 2011. If 
we don't turn things around by 2011, we will be spending 17 
percent of the Gross Domestic Product on health care, almost $1 
out of every $5. One would think that because we spend more of 
our GDP on health care than any other country, that we would 
have the best health status. This, however, is not the case.
    In June 2000, the World Health Organization announced their 
first ever analysis of the world's health systems. They 
compared 191 countries and found that the United States ranked 
37th out of 191. Obviously, dramatically increasing our 
spending on health care is not the solution. I am attaching to 
this statement a list of guiding principles for health care 
renewal in the 21st century. These principles embody what we 
have been working on for the last 4 years, as we have looked at 
the role of complementary medicine in our health care system 
and the importance of preserving our rights as Americans to 
make our own health care choices.
    One of the things we have noted is that doctors are taught 
how to deal with problems after they occur and not before they 
occur. That is why complementary and alternative medicine is a 
necessary adjunct to make sure that we do something that will 
prevent the onset of health care problems so that we can cut 
the health care costs.
    I am pleased that Ms. Diane Ladd is here with us today. Ms. 
Ladd has been called 1 of the 10 leading actresses in the 
world. Her film credits include ``Rambling Rose,'' ``Wild at 
Heart,'' ``Alice Doesn't Live Here Any More,'' and ``Christmas 
Vacation.'' Ms. Ladd has also appeared in numerous television 
shows including ``Dr. Quinn, Medicine Woman'' with my friend, 
Jane Seymour, and a show that everyone loves, ``Touched by An 
Angel.'' One of her most recent television movies was ``Talking 
to Heaven.'' Ms. Ladd, in addition to acting and directing, is 
a certified nutritional consultant. She is here today to share 
her personal insights on the role of nutrition in healing.
    It may seem like common sense that diet and exercise can 
improve our health. There is also an increasing body of 
scientific evidence that supports this. Experts tell us that 
about 85 percent of diseases and illnesses in this country 
result from lifestyle decisions. Conversely, the adoption of 
healthy lifestyle choices, including moderate physical 
activity, a sensible diet and the appropriate use of dietary 
supplements, can improve our health.
    Unfortunately, the typical medical school student will 
spend less time in classes learning about nutrition than we 
will spend in our hearing today. My son-in-law is a doctor and 
when I start talking to him about this stuff, he says let's 
talk about golf. He is a real neat guy thought. If doctors have 
no training in nutrition, much less dietary supplements, how 
are they supposed to advise their patients?
    One of our witnesses today is working to change that. Dr. 
Pamela Peeke is a Pew Scholar in nutrition and metabolism and 
an adjunct clinical professor at the University of Maryland. 
She is also the author of the book, ``Fight Fat After Forty.'' 
Dr. Peeke devotes her energies to the education of medical 
professionals in nutrition, lifestyle and fitness. She 
presently is teaching and devising new medical curricula in 
nutrition and metabolism.
    As part of our investigation, we have learned that 
naturopathic doctors who are trained at accredited naturopathic 
universities receive the training in nutrition that M.D.'s 
ought to receive. However, students may be discouraged from 
applying to these schools because there is an inequality in the 
loan programs at the Department of Education between M.D.s and 
N.D.s. The Department of Education needs to eliminate this 
discrepancy. The committee has been active in monitoring the 
implementation of the Dietary Supplement Health and Education 
Act of 1994. Previous hearings have focused primarily on the 
Food and Drug Administration's lack of full implementation. To 
date the American public has not been well served by the FDA in 
this respect. It has been 8 years, and still, we do not have 
good manufacturing practice guidelines published. There is 
negligible review of imported products. We must have the full 
implementation of DSHEA in order to assure the quality of 
products on the market and that information is readily 
available to consumers.
    Yesterday, the National Academy of Sciences, under contract 
with the FDA, published for comment a Proposed Framework for 
Evaluating the Safety of Dietary Supplements. This is also an 
important issue that the FDA needs to understand in order to 
fully implement DSHEA. As we have learned previously, tracking 
adverse events for dietary supplements does not provide valid 
scientific data on which to develop policy.
    Mr. David Seckman, the executive director and CEO of the 
National Nutritional Foods Association is here representing the 
manufacturers and retailers of dietary supplements. Mr. Seckman 
is appropriate to speak to these issues today not just in his 
role at the NNFA, but also because of his background as the 
former vice president for regulatory affairs of the American 
Health Care Association and former executive director of the 
Illinois Health Care Association.
    In addition to traditional use, there is a scientific basis 
for the wise use of vitamins, minerals, and botanicals to 
improve health. Through research, we are learning which 
nutritional components are best obtained through diet and which 
are absorbed from supplements.
    We already know from traditional use and research that 
drinking cranberry juice can help prevent certain infections. 
We also know the use of acidophilus, when taking antibiotics 
can help prevent the onset of yeast infections. Dr. Linus 
Pauling told me over 30 years ago that taking vitamin C every 
day would help prevent cancer. I am attaching a list of widely 
accepted nutritional connections to improving health.
    In a February 1999 hearing, Dr. Dean Ornish testified about 
his research showing that heart disease could be reversed 
through a comprehensive lifestyle improvement program that 
includes a low-fat and plant-based diet, moderate physical 
activity, stress management, and dietary supplements. This 
approach has been shown to reverse heart disease, a feat that 
drug and surgical approaches do not achieve. Currently the 
Ornish program is being evaluated in a Medicare demonstration 
program. Clinical trials are also under way evaluating the 
benefit of the Ornish program for preventing a recurrence of 
prostate cancer. The preliminary findings are promising.
    In December, I introduced H.R. 3475, the Dietary Supplement 
Tax Fairness Act of 2001. This bill amends the Internal Revenue 
Code to treat amounts paid for foods for special dietary use, 
dietary supplements, and medical foods as medical expenses for 
purposes of the medical expense deduction. This bill has also 
been introduced as S. 1330 in the Senate.
    Last month the Journal of the American Medical Association 
published research that recommended that all Americans take a 
multivitamin every day. With improved and expanded research we 
will learn more about how and when nutritional supplements will 
improve health and play a role in the healing process. It is 
also through research that we will learn more about safety, 
toxicity, and contraindications.
    On June 20th, in outlining his health and fitness 
initiative, President Bush made the following remarks:

    Better health is an individual responsibility, and it is an 
important national goal. We are making great progress in 
preventing, detecting and treating many chronic diseases. That 
is good for America. We are living longer than any generation 
in history. Yet we can still improve. When America and 
Americans are healthier, our whole society benefits. If you are 
interested in improving America, you can do so by taking care 
of your own body. This year, heart disease will cost our 
country at least $183 billion. If just 10 percent of adults 
began walking regularly, we could save billions in dollars in 
costs related to heart disease. Research suggests that we can 
reduce cancer deaths in America by one-third simply by changing 
our diets and getting more exercise. The evidence is clear, a 
healthier America is a stronger America.

    The President called for the adoption of four guideposts: 
No. 1, be physically active every day; No. 2, develop good 
eating habits; No. 3, take advantage of preventative 
screenings; and No. 4, don't smoke, don't do drugs, and don't 
drink excessively.
    Dr. Timothy Church of the Cooper Research Institute will be 
testifying about the important role that physical activity 
plays in improving and maintaining health. The Cooper Research 
Institute, founded by Dr. Kenneth Cooper, has long promoted 
improved health through aerobic exercise.
    Regular physical activity substantially reduces the risk of 
dying from coronary heart disease, the Nation's leading cause 
of death, and decreases the risk for colon cancer, which my 
wife succumbed to just recently, diabetes, and high blood 
pressure. It also helps to control weight; contributes to 
healthy bones, muscles, and joints; reduces falls among the 
elderly; helps to relieve the pain of arthritis; reduces 
symptoms of anxiety and depression; and is associated with 
fewer hospitalizations, physician visits, and medications. 
Moreover, physical activity need not be strenuous to be 
beneficial. People of all ages benefit from moderate physical 
activity, such as 30 minutes of brisk walking five or more 
times a week.
    We have a lot of other people who will testify today and I 
am pleased that we will hear from a variety of these people, 
Dr. George Bray, Boyd professor of medicine, Louisiana State 
University is a leading expert on obesity. Dr. Larry Kushi, 
associate director for etiology and prevention research, Kaiser 
Permanente, is an expert on macrobiotics and other plant-based 
diets and their role in preventing diseases such as cancer. Dr. 
David Heber, director, division of clinical nutrition, 
University of California at Los Angeles is one of the country's 
leading experts on the science of dietary supplements. I am 
also pleased that we will receive testimony from Dr. Paul 
Coates of the Office of Dietary Supplements at the National 
Institutes of Health and Dr. William Dietz, the Director of the 
Division of Nutrition and Physical Activity at the Centers for 
Disease Control and Prevention.
    Improving our health through diet and lifestyle is low cost 
and effective, and will save the taxpayers a lot of money and 
the individual citizen a lot of money. We need to find ways to 
empower Americans to take charge of their lives and improve 
their health, and reduce the incidence and tragedy of chronic 
and life-threatening medical conditions.
    The hearing record will remain open until August 8.
    Other statements? Mr. Schrock.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.001
    
    [GRAPHIC] [TIFF OMITTED] 81866.002
    
    [GRAPHIC] [TIFF OMITTED] 81866.003
    
    [GRAPHIC] [TIFF OMITTED] 81866.004
    
    [GRAPHIC] [TIFF OMITTED] 81866.005
    
    [GRAPHIC] [TIFF OMITTED] 81866.006
    
    [GRAPHIC] [TIFF OMITTED] 81866.007
    
    [GRAPHIC] [TIFF OMITTED] 81866.008
    
    [GRAPHIC] [TIFF OMITTED] 81866.009
    
    [GRAPHIC] [TIFF OMITTED] 81866.010
    
    [GRAPHIC] [TIFF OMITTED] 81866.011
    
    [GRAPHIC] [TIFF OMITTED] 81866.012
    
    [GRAPHIC] [TIFF OMITTED] 81866.013
    
    Mr. Schrock. Thank you, Mr. Chairman.
    Thank you for calling this meeting today to discuss what I 
feel is a critical issue that is facing our Nation. It is no 
secret that obesity is epidemic in the United States. According 
to this committee's background documents, there are currently 
over 45 million obese adults and about 8 million obese 
children. These numbers, I can assure you, are on the rise.
    The effects of obesity in our population and on our economy 
is staggering. According to the Surgeon General, 300,000 
Americans die prematurely each year due to their weight and 
obesity which costs Americans $100 billion per year. According 
to the RAND Corp., obesity contributes to higher cost increased 
for health care services and medications than do either smoking 
or drinking problems.
    The July August 2002 edition of Men's Health Magazine, and 
I appear on the cover. [Laughter.]
    Mr. Burton. Something has happened to you. [Laughter.]
    Mr. Schrock. There is a lot under this clothing, I can tell 
you.
    The magazine had a series of articles on this topic and 
they have challenged American men to lose 1 million pounds 
collectively. This is a great challenge that will help men feel 
better, live longer and save them thousands of dollars over 
their lifetimes. Overweight men, according to this article, are 
50 percent more likely to develop heart disease, 70 percent 
more likely to develop high blood pressure, 58 percent more 
likely to have total cholesterol of 250 or greater, 16 percent 
more likely to die from their first heart attack, 9 percent 
more likely to have a stroke, and 250 percent more likely to 
develop diabetes.
    Overweight men spend 37 percent more a year at the 
pharmacy, make 12 percent more visits per year to their primary 
care doctor, spend 19 percent more days per year in the 
hospital, and pay $4,200 more over their lifetimes for medical 
care. Overweight men are 5 percent more likely to die of 
prostate cancer, 35 percent more likely to develop kidney 
cancer, 120 percent more likely to develop stomach cancer and 
590 percent more likely to develop esophageal cancer. These 
statistics are staggering and though they are particularly for 
men, I am sure they could be translated to women as well.
    The way I see it, the Federal Government should do all it 
can to encourage healthier living. After all, an ounce of 
prevention is worth a pound of cure. Last month, President Bush 
outlined his health and fitness initiative. Congress should 
take his lead and find ways to positively encourage our society 
toward healthier living. Our panel of experts today will 
provide us with valuable information that we should use to 
improve Federal policies with regards to diet, physical 
activity and dietary supplements. I look forward to their 
testimony.
    I can tell you firsthand how important health is. On July 
15, 1975, I was diagnosed with an incurable cancer and given 6 
months to live. In 90 days, I lost 142 pounds and lived in a 
coma for 6 months and the doctors gave me absolutely no hope. 
During conversations the doctors had over me with my wife, they 
were convinced I would be dead anytime soon but I knew I was 
meant to be here to work on this issue. I think that is why I 
am here today.
    I worked out heavily, I weighed 240, I drank and smoked 
more than I should have but that was my wake-up call. I no 
longer do any of that and I am the biggest health advocate in 
the world and I think when we come back in January I am going 
to challenge my colleagues on both sides of the aisle to take 
part in this million pound loss by challenging the Democrats to 
lose 5,000 pounds and the Republicans to lose 5,000 pounds 
because folks, some of the people I see walk into that chamber 
need to do it because they are going to die young and that is 
not a good thing. This is a very important issue and I wish 
every Member was here to hear it.
    I am looking forward to hearing Ms. Ladd. Thank you for 
coming. I am delighted you are here and I am delighted the 
others are here as well.
    Thank you, Mr. Chairman.
    [The article referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.014
    
    [GRAPHIC] [TIFF OMITTED] 81866.015
    
    [GRAPHIC] [TIFF OMITTED] 81866.016
    
    [GRAPHIC] [TIFF OMITTED] 81866.017
    
    [GRAPHIC] [TIFF OMITTED] 81866.018
    
    [GRAPHIC] [TIFF OMITTED] 81866.019
    
    [GRAPHIC] [TIFF OMITTED] 81866.020
    
    [GRAPHIC] [TIFF OMITTED] 81866.021
    
    [GRAPHIC] [TIFF OMITTED] 81866.022
    
    [GRAPHIC] [TIFF OMITTED] 81866.023
    
    Mr. Burton. Thank you, Mr. Schrock.
    We do kid around a lot about some of these things, but it 
is very, very serious and I think you have illuminated that 
issue very well.
    Now for our 29 year old colleague.
    Mrs. Morella. Thank you, Mr. Chairman.
    I didn't prepare any remarks but I am very interested in 
this hearing. I thank you very much for scheduling it.
    I must say I was moved by my colleague, Mr. Schrock's 
comments and indeed, I would be very happy to help to partner 
with him as he pursues that tremendous goal.
    This is a hearing where we might sometimes find ourselves 
in the situation where Robert Frost defined a poem. He said, 
``In the end, it tells me something I didn't know I knew'' 
because some of the issues that will come up are really common 
sense issues like diet, to find out how important diet is; 
nutrition; the whole concept of supplements, how important are 
they; and the whole issue of exercise; and I would add another 
ingredient and that is attitude. I have always felt that 
attitude is altitude, how you look at things. We have seen that 
with you, Mr. Chairman, as well as with Mr. Schrock, in terms 
of how you handle situations.
    Indeed, mention was made of obesity and you mentioned, Mr. 
Schrock, obesity in men in particular but we are going to have 
somebody testify today, someone who is a constituent of mine, 
Dr. Peeke who is going to be looking at the gender facet of 
that. Whereas 31 percent of men are obese, 34 percent of women 
are. Maybe in some way we can also look at gender nuances.
    Above all, we can look at our role as policymakers and 
think of the money we would be saving. We are pouring a lot of 
money into the National Institutes of Health and I also note 
that Paul Coates, the Director of Dietary Supplements at the 
National Institutes of Health, is here. We know that some of 
the research is being reflected in our knowledge as well as our 
cures, including prevention of some of the major illnesses and 
the money we have saved, and the impact on families. We tend to 
forget sometimes that when you have these health crises, the 
impact on families, on caregivers, on every member of the 
family.
    So I look forward to learning a great deal from the hearing 
today. I want to thank all the witnesses. You have assembled a 
very distinguished group of witnesses who will be able to share 
their experiences and knowledge with us. Dr. Peeke is 
accompanied by another constituent of mine, Irene Pollin. I am 
pleased she is here and Dr. Coates from NIH.
    I yield back time served so we can commence the hearing.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mrs. Morella, and you do look very 
young. You obviously take very good care of yourself.
    Before we bring up Ms. Ladd, let me say that one of the 
things Katie Couric expressed when she lost her husband to 
colon cancer, and I lost my wife recently to colon cancer, and 
one of the things I try to say at every meeting, not on the 
subject at hand today, but anybody over 40 and surely over 50 
should get a colonoscopy. My wife never was told that and 
because of that, when she started having stomach problems, they 
gave her stomach medicines and by the time we found out it was 
colon cancer, it had metastasized into her liver and it was too 
late. So I would say anybody over 40 if you haven't had it, 
especially if you are over 50, remember what I am telling you. 
It is something that can save your life.
    I gave a speech at a Republican get together in northern 
Indiana not long ago and I said this and the guy that was 
putting on the program wrote me a letter last week and said he 
had never even thought about that. He was a former State 
senator and they found 10 polyps in his colon and my bringing 
that to his attention probably saved his life because they 
think a couple of those were cancerous.
    So all I am saying to you is that this is not on this 
subject but in addition to good health, good diet and good 
exercise and all that, you need to do these other things that 
are important as well.
    With that, Ms. Ladd, you are a lovely lady. Would you 
please come forward so I can swear you in?
    [Witness sworn.]
    Mr. Burton. I have admired your work as have my colleagues 
for many years. I don't know how many movies you have appeared 
in but it is well over 100. We are very happy to have you as we 
have had other celebrities here and we are anxious to hear what 
you have to say, so would you make your opening statement?

  STATEMENT OF DIANE LADD, ACTRESS, FILM DIRECTOR, CERTIFIED 
                NUTRITIONAL CONSULTANT, OJAI, CA

    Ms. Ladd. Mr. Chairman, Congressman Schrock, Congresswoman 
Morella, it is my privilege and pleasure to be here today. I 
not only talk to you as a fellow citizen and American, but as 
an actress, a species that lives between chance and oblivion. I 
am a resident of the State of California, previously a resident 
of New York. I have also at times in my life because of my work 
in the medical field been a resident of Texas and Florida but I 
was raised in the beautiful magnolia State of Mississippi.
    My name is Ladd. My real name was Lanier or Ladner. My 
father sold medicine for poultry and livestock, wholesale and 
retail throughout five States. As a child at his knee, I 
witnessed my father encouraging human beings who did not have 
proper nutrition to go beyond the norm, to reach the extra mile 
to save their lives, the same with my great grandmother who was 
a doctor who studied with the Cherokee Indians, the healing 
arts and herbology.
    As an actress, I am privileged to have represented my 
country and be a three time Oscar nominee and to have been 
honored with over 23 international awards and honors and sent 
telegrams by my Government, by Washington, by Mr. Jack Valenti 
representing my government.
    My advocation is health. It is my love and it is a 
professional hobby. I am here with you today to share with you 
how important I feel vitamins and minerals are and how they can 
be involved in miracles. I am here to testify to the art of 
miracles and how they can be accomplished by making changes 
mentally, physically and spiritually. It takes a triad and in 
order to have a cure, one must know the cause.
    As a young, young wife and mother, seems like eons ago, a 
young bride, my husband, actor Bruce Dern and I, two struggling 
actors, had a beautiful baby daughter 2 years old. Our child 
died in a very tragic accident. Being an emotional actress, the 
pain is always with me because memory is always in you as a 
human being but the trick in life is to use the things that we 
go through not only to better ourselves but to better our 
fellow human beings. As Congressman Schrock said, maybe he is 
supposed to be here today to fight for these issues. I feel the 
same way.
    After my daughter's death, my body screamed to replace that 
child, for God to give me another child. Indeed in a little 
over 8 weeks, I got pregnant again and I said, God taketh away, 
God giveth back but it was not to be so simple. It turned out 
it was a tubular pregnancy, a pregnancy in the fallopian tube. 
I almost died, it almost took my life. My right tube was 
completely removed and most of the left tube. They left me with 
just a little piece of a tube, probably for female functions. 
Five top doctors in our country told me that I, Diane Ladd, 
would never, never, impossible, have another child, no way.
    I went on my own search in 1962 and there were no health 
stores, no health books except for Gaylord Houser's ``Mirror, 
Mirror on the Wall.'' I took it to heart. I absorbed it. I 
spent my days not looking for acting jobs, but being in 
libraries, reading about the human body. What vitamins could 
help my body, what foods could help my body, avocado, the oils, 
bee pollens, the Vitamin B's, and so forth.
    I flew to New York to a great semiscean pellor doctor who 
really cared about his fellow human beings who informed me that 
mud baths can prevent sterility. I went over massage, 
chiropractory, the doctors thought I was nuts. They wouldn't 
talk to me about it but I continued my search. Gentlemen, after 
3\1/2\ years, I walked into the office of Dr. Charles 
Ledagurber, one of the top gynecologists in our country, one of 
the five doctors chosen by my government to go to China to do 
research on their traditional modalic medicine which is our 
alternative modalities in medicine.
    I went in to Ledagurber, who had great empathy for me 
because he too had lost a child in his life but he had four 
other children, I had none. I had a smile and I said, Dr. 
Ledagurber, I think I am pregnant, go make your test. He looked 
at me with such a sad look and said, ``Oh, Diane, honey, you 
cannot be pregnant. It is impossible. Go home and cry.'' I 
said, ``Dr. Ledagurber, I have cried, now go make your test.'' 
He made the test and I was pregnant.
    When my daughter, Laura Elizabeth Dern, was born, they took 
her caesarian to prevent any possibility of complications. 
While I was on that operating table, after they took my child 
from my womb, I remained on the table for 4 solid hours while 
they played in my gut and removed 16 major adhesions that had 
been caused by tubular pregnancy. They removed them from my 
body.
    One of the other five doctors who said I could never have 
another child showed up to see it for himself. I was passed out 
on the table. They don't knock you out because the body bleeds 
more when it is knocked out but if you pass out, it is a little 
bit better. So I was passed out and they were in there doing 
their work when my subconscious heard the other doctor say, 
``My God, my God, it is impossible that this child got through 
that body and that tube. This is a miracle.'' I scared him, 
this blond head rose up off the table and I said, ``That is 
right. It is a miracle and it is a hell of a lot of hard 
work.''
    My daughter, Laura Elizabeth Dern, would not be on this 
planet today were it not for my own, individual vitamin and 
mineral program that gave my body the ability to assimilate 
those nutrients that I needed to rise above the negatives that 
had been created. Our body is a miracle machine, if we can 
follow our intuition. Or course actors have a seventh sense and 
they gave the medical profession psychodrama. Actors have been 
known to go into mental institutions and where doctors cannot 
get a patient to speak, actors have gotten a patient to speak, 
have opened them up to literally talk. As I said before, at one 
time in history in Egypt art and science was one profession.
    My second medical miracle came when my daughter, Laura 
Dern, was 12\1/2\ years old. She was discovered to have 
scoliosis, a disease which is a crippler and a killer. I took 
her to a Dr. Jack Moshime, a very famous Beverly Hills 
orthopedic surgeon. He has done a lot of great work in this 
country. On x-ray, my daughter's spine was like an ``S,'' very 
severe. I was pretty hysterical because having lost a child you 
can imagine how protective I was of this child, my little 
miracle. The fact that they hadn't discovered it before was 
unbelievable to me but it appeared that when she was 5 years 
old, she had been bitten by a black widow spider, and the 
poison from that bite had thrown the alignment of her spine out 
of balance so as she grew, the spine formed in a crooked 
manner.
    I asked Dr. Moshime how long have I got before I have to 
put my child in that back brace you are telling me to put her 
in from her hips to her neck, her whole teenage livelihood? He 
said, I will give you 9 months, Diane, and you be back in here 
and we are going to put that brace on her. You go do whatever 
you think you are going to do and I will see you here in 9 
months. In those 9 months, I took my daughter through several 
things. One of them was a Dr. Viola Framman in San Diego who 
today has the Osteopathic Promise for Children. Viola Framman 
had lost a child when she was a young medical student and she 
knew and testifies that she knew then and knows today that if 
the doctors treating her child had gone the extra mile, that 
her child would have lived. So she has devoted her whole 
lifetime to humanity, especially to children, with the art of 
cranial therapy. Her mentor was Dr. Magune who was one of 
President Eisenhower's private physicians. He is the 
grandfather of the art of cranial therapy. Dr. Magune taught 
Viola, Dr. Magune sent me to Viola and she worked on my 
daughter every 2 weeks and then every month for the next 9 
months.
    Through the art of adjustment, through cranial therapy, 
pictures were taken where you could see her body changing 
literally, photographs. I also took her to a chiropractor, I 
also took her to a laying on of hands healing arts, Doug 
Johnson, very famous all over the world. I also went on a 
vitamin, mineral regimen. I also rubbed peanut oil which is a 
healer on the bottom of her feet. I took the skin from potatoes 
and tied them at night on her eyes with a rag because I know it 
draws out poison from the body.
    In 9 months, I went back in to Dr. Moshime. He takes one 
look at Laura and says, oh, my God, she has grown 2 inches. 
Diane, growth is a detriment. Scoliosis is a not only a 
crippler, it is a killer. He was almost hysterical. I said, I 
don't know, go take your x-rays and tell me what to do now.
    I sat in his waiting room among 16 other patients, my 
daughter and I, waiting for the verdict, the health verdict 
when suddenly this doctor comes racing through that room, 
waving his hands over his head, ``My God, it is a miracle.'' I 
whispered, ``Yes, Doctor, it is a miracle and a hell of a lot 
of hard work.'' On x-ray, in those 9 months, my daughter's 
spine instead of being like this, still had a little bit of 
problem, but ladies and gentlemen, it was like this, you could 
hardly see the curve. Laura Dern did not have to wear that 
prescribed brace for her whole teenage lifetime. Instead of 
being able to share her great talent that God gave her and make 
movies such as ``Mask'' and help influence our teenagers in the 
world to fight for morality and the good in their own lives, 
Laura would not have been able to do anything or fulfill her 
destiny had I not fought and used alternative modalities.
    Third was allergies. I had gotten those from emotionalism, 
having gotten divorced and I had ragweed and pollens, dog hair 
and the actor's disease is dust because of our travels and old 
theaters. All of these, I had to get a staph shot once a month 
for the different cities, floating staph in the air and once a 
week, I had to get shots for the other allergies, and I had to 
give away my dogs.
    Virginia Capers, a Tony winning, beautiful black actress 
came to me and said, ``Diane Ladd, I am tired of you suffering 
like this, you take this book and make it your bible.'' It was 
a book on juices. It was a book that taught me that when the 
body gets uneasy, when the body gets too stressed, when it has 
disease, it begins to develop disease and the more it needs the 
vitamins and minerals, the body isn't capable of assimilating, 
of withdrawing from the nutrients what it needs. It must have 
supplementation.
    I took the book and I supplemented my diet four times a day 
with natural juices, mixtures of carrot juice, cucumber, 
celery, spinach and very little parsley. Too much parsley is 
not good and beet. I mixed these juices and supplemented my 
diet four times a day and in 1 month all of my allergies were 
totally gone and I have never had to have a shot. That was in 
1976. So that was the third thing.
    The late Rock Hudson was a friend of mine, I had done a 
movie with him. They asked me to portray after his death his 
mother in a TV show. I hated the script, I thought it was 
completely a ripoff of this man's life. I took the script and 
threw it I was so angry. Then I said, Diane, if you don't do 
the movie, Hollywood is just going to do it and it is going to 
be terrible. At least if you get in there, you can fight, 
scream and try to make it better. Go do it and try to make it 
better and honor this man. So I did.
    I told the producers that I would do it for very little 
money, minimum, if they would contribute $25,000 to research 
for immune related diseases at the hospital of my choice. I 
chose Scottsdale, AZ where Dr. Terry Friedman was doing his 
work. He was one of the seven doctors who founded one of the 
great organizations in our country, the American Holistic 
Medical Association. These are AMA doctors who believe in the 
oath they took and they believed when you say you are going to 
make a human being well, you help them heal by using everything 
God gave you to help that person balance their body.
    Dr. Friedman worked with the money they gave him on cancer 
victims and AIDS victims and one particular young man who came 
from Texas had been given 3 months to live, he was dying from 
AIDS. You could see this was a skeleton walking around. They 
gave him chelation, they gave him mineral programming, they 
gave him a diet of vitamins and minerals and as much proper 
foods as they could. They did alternative modalities, massage, 
manipulation, detoxification. Within 3 months, that man did not 
look like the same man. That young boy walked out of that 
hospital. Maybe he carried still some of the AIDS with him but 
life is precious, none of us knows who will walk out of here 
and be hit by a car. A minute is a minute to smell a rose. If 
God can give it to us, we have the right to fight for it.
    There have been many other experiences. I have since worked 
with doctors, lectured all over the country. I am on the 
scientific board of advisors for Congressman Berkeley Bodel's 
organization here in Washington, the NFAM, the National 
Foundation for Alternative Modalities and when time permits, I 
work with doctors. I have a book I have written called, 
``Spiraling through the School of Life,'' which is coming out 
sharing all of the experiences I have had.
    These experiences even included a sojourn to Central 
America where I picked up a parasite and St. John's Hospital 
didn't find it. Again, it was alternative modality doctor who 
is also an AMA medical doctor who in 2 weeks changed my body. 
In your packet today you have, which I asked for, approximately 
20 letters from some of the top medical doctors in our country 
today who each has testified to the importance of vitamins and 
minerals. I as an actor testified that the actor's instrument 
is his body and today the arts are in as much trouble as 
medicine. There are those who would keep culture from shining 
and helping people. Culture is the mental part of health and if 
you don't believe me, go step in your Library of Congress. Take 
a minute and see what it does for your whole body, how it 
refurbishes your very soul. That is my primary way of healing 
through the arts.
    In a profession where there is 120,000 actors today, and 
87,000 of them didn't work last year, they made less than a 
poverty wage of $7,500, and in a world where 37,000 didn't 
work, in a world where we are losing $150 billion this decade 
to Canada alone which is $30 billion of your tax money, why 
should we give that money away? That can build medical centers, 
playgrounds. Why aren't we helping medicine and why aren't we 
helping the arts so that we can make good films which will make 
people feel better and be healthy?
    I beg that the protection of vitamins and medicines, we 
have the right to choose our own vitamins. Medicines are food. 
Sure it can't be poisonous anymore than food should be 
poisonous but we have the right to choose. Nobody should give 
me a prescription for a vitamin or medicine. Don't they dare 
start to play that game. I want the right to choose my food in 
my country and the right to buy my own vitamins and medicines.
    If my poor actors, 120,000 of them, 80,000 who are probably 
getting pretty depressed and pretty ill by now, don't have the 
right to buy a vitamin or a medicine, they are going to die. So 
let us keep some of your artists alive, let us keep humanity 
alive and by the way, just so you know, the cultural business 
is affecting men and women across the country. They are going 
belly up because of a lack of the right to do independent films 
in this country. They have no money and we need to get on board 
with France, Spain, Australia and everybody else and get some 
work in this country for these people.
    We also need to have the educational committees work with 
Congressman Burton and you Congresspeople and let us get 
vitamins and minerals in the school lunches for our kids. If 
your own Surgeon General has said a proper diet can indeed 
prevent cancer, then let us help to get them a proper diet 
because when you go to dinner tonight, what is the proper diet? 
Sometimes food is like some of the people we know, pretty good 
on the outside, not much going on inside. So when you go to get 
your food tonight, I don't know what that food you eat has. 
Just to protect yourself, please let us get our kids some 
vitamins and minerals.
    Thank you for allowing me to speak. Any questions, please.
    [The prepared statement of Ms. Ladd follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.024
    
    [GRAPHIC] [TIFF OMITTED] 81866.025
    
    [GRAPHIC] [TIFF OMITTED] 81866.026
    
    [GRAPHIC] [TIFF OMITTED] 81866.027
    
    [GRAPHIC] [TIFF OMITTED] 81866.028
    
    [GRAPHIC] [TIFF OMITTED] 81866.029
    
    [GRAPHIC] [TIFF OMITTED] 81866.030
    
    [GRAPHIC] [TIFF OMITTED] 81866.031
    
    [GRAPHIC] [TIFF OMITTED] 81866.032
    
    [GRAPHIC] [TIFF OMITTED] 81866.033
    
    [GRAPHIC] [TIFF OMITTED] 81866.034
    
    [GRAPHIC] [TIFF OMITTED] 81866.035
    
    [GRAPHIC] [TIFF OMITTED] 81866.036
    
    [GRAPHIC] [TIFF OMITTED] 81866.037
    
    Mr. Burton. Thank you, Ms. Ladd. You are very informative 
in your statement but you are also very interesting and I found 
it very entertaining as well.
    You mentioned that your daughter, Laura Dern, wouldn't have 
been born if you hadn't had proper diet and vitamins and 
supplements. Are you aware of any research in our government 
that is looking at those issues?
    Ms. Ladd. I am aware of those letters from the doctors who 
are AMA doctors. I was privileged in Arizona, unfortunately, to 
be in a room with five top doctors from this country. A 
hospital is a terrible place to get your karma. You had better 
pray to God if you are ever in a hospital that you get a doctor 
who believes in his work because the chips are down then. I was 
in a hospital with doctors who believed in their work and they 
called the Center for Disease Control in Atlanta, GA. Dr. 
Friedman had them on the speaker and he begged them to please 
come monitor the work they were doing. They didn't want any 
work from them, they just wanted them to come and monitor it so 
they could maybe get a grant or something to continue their 
work for humanity sake. They asked them, please, in God's name, 
come monitor what we are doing. They said, well, what are you 
doing to save the lives? He said, chelation, which I personally 
have seen do wonders; Vitamin C drips, and I have seen that do 
wonders, miraculous wonders; vitamins, massage, and modalities 
and herbology, and mental programming. The Centers for Disease 
Control laughed in their face, roared with laughter and said, 
we don't believe in anything holistic and they slammed the 
phone down in these famous doctors' faces. I was there and 
witnessed it.
    There is an organization called AHHA. She sent me a letter 
to thank me for coming to testify for you. She said she had 
heard me speak once in Scottsdale, AZ about 15 years ago and 
because of that she formed this organization to do research. 
She has a lot of research. You have a letter from her. Dr. 
Gladys McGary is one of the giants of the business and Dr. Bob 
Anderson. These doctors are the ones I put my faith in, the 
ones who working together to ask each other, tell me what you 
learned, I will tell you what I have learned, I will help you, 
you help me. We can't live alone, we are not isolated.
    Mr. Burton. Other cultures have embraced nutrition. I think 
China is a leading example of that. They have other methods of 
healing which are not generally recognized here in the United 
States. Here in America, it seems like we focus on after the 
fact, after the disease has taken place and trying to come up 
with the magic bullet. Can you tell us a bit about your 
experience with some of the methods used in other countries, 
the vitamins and supplements they use and how that might be 
effective?
    Ms. Ladd. When I mentioned my great grandmother, Prudence, 
she was a young doctor, had trained herself. First, she was a 
midwife and went to New Orleans with a horse and buggy and 
stole all the books from the library so she could help her 
patients. They didn't have any libraries in Mississippi at that 
time. She came back and finally got a medical degree, delivered 
over 3,000 babies. She was the kind of woman that once was 
thrown in a blizzard off a horse, broke her leg, got back on 
the horse and went and delivered a baby, then had her leg set. 
There are records of her cures of typhoid fever and diphtheria 
before the advent of the drugs that would cure those diseases. 
She used the herbs the Cherokee Indians taught her.
    I am also aware of an experience of my father when I was 5 
years old. I was in Mobile, AL and there was an outbreak of 
spinal meningitis. The neighbor's son had been taken to the 
Mobile Infirmary and they even had beds in the halls. They told 
this poor farm couple take your son home, he was 17 years old, 
he will be dead by morning, there is nothing we can do. They 
came over to my daddy begging him, and my daddy said I am a 
doctor for chickens and cows and dogs. They said, oh, Mr. Ladd, 
please, you have to help us, we have nobody to turn to.
    I remember seeing my father's chin quiver and I saw those 
tears in his eyes and I heard him mutter, you don't ever give 
up on life while you are in life. He went out that door and 
found a young country doctor who had just graduated from 
Harvard and was in this place Chickasaw, AL. He brought him to 
these people. This doctor rounded up the neighbors and the 
neighbors held the boy's body, the legs and hands down because 
in spinal meningitis the body will curl until the back will 
snap. They held the boy down so the body wouldn't snap and he 
worked on that boy all night. You could hear that boy screaming 
all through the neighborhood.
    He also brought in an old man about 84 years old, a country 
doctor to advise him, tell me what to do, tell me what to use, 
what can we do. I don't know what all he used but I know he 
used alternative medicine just as fast as he could get his 
hands on it. Alternative medicine is herbs, perfecting the 
human body.
    Yes, I believe in traditional medicine but today, we are 
overmedicated and there are many, many side effects. If a woman 
takes an antibiotic, she is going to get yeast unless she takes 
acidophilus. Lots of time men will get it too in their gut, all 
through their body. Like you said earlier, Shelley Winters' 
daughter graduated from Harvard, she had 7 years there, she 
only got 2 weeks nutrition. That is impossible. That doesn't 
make any sense today. How can that make sense when the Surgeon 
General says you need a proper diet? We must have nutritional 
training for our doctors. This must be demanded from the 
universities. We must protect the old and the young.
    In answer to your question, I have seen with my own eyes 
miracles. I have seen women come into the wellness clinic there 
in Florida. I have seen them have breasts cutoff from cancer, 
and there is cancer in their body and I have seen the 
application of mental, physical and spiritual practices that 
then you couldn't find cancer in the body. This is without 
chemotherapy. I just lost another friend from chemotherapy. Two 
or three of my friends had cancer and it returned years later 
and took their lives.
    My witness to these miracles of cancer tells me that we 
don't have to be so arrogant to think that we know what we 
don't know. Yes, I bless the people who have drugs that will 
cure my body, I also want to know if it can hurt my body. You 
had better warn me and tell me what else I do to get those 
toxics it is creating out of my body.
    One of my experiences, and I am so sorry, Congressman, that 
you just lost your wife. Grief is an emotion that one cannot 
pretend does not exist. On May 23, I lost my beautiful 89 year 
old mother. She had a stroke 6 weeks earlier and I was in the 
hospital with her day and night. I know that I am still full of 
grief. I wake up and think, oh, I will make lamb tonight, it 
will be good for mother. Mother is not here, she won't eat the 
lamb, she is on the other side.
    I know that in those 6 weeks, the little hospital I was at 
the nurses cried and said, you and your daughter have helped 
someone leave in death in a manner we have never seen before. 
We wish that every human being could have this kind of 
treatment and this kind of love as they were leaving. I know 
the doctor said, my God, your mother is a strong woman. My 
mother was a strong woman because of the vitamin/mineral regime 
I gave her.
    My mother fell and broke her pelvis. She got up and healed. 
My mother fell and broke her arm. She got up and healed. My 
mother fell and cracked her hip but she got up and healed and 
she was looking forward to her 90th birthday, a beautiful party 
which she didn't get, but I know how vitamins and minerals 
helped her. I know many times the medicines they were giving 
her were the wrong medicines and they caused great side 
effects. We had to go back and talk to them and remove some of 
these medicines.
    I talked to my own Motion Picture Academy and they have 
really been having a terrible time with some of the side 
effects from some of our drugs. Again, I repeat, we bless the 
people who got us the drugs but we really need to use all of 
the knowledge and wisdom of the medical doctors who care about 
their patients and believe in medicine alternative modalities. 
Let us not throw out the baby with the bath water. Let us 
embrace their wisdom and their experience, people like Berkley 
Bodell who went fishing 1 day, a tick bit him and he got lyme 
disease. He has set up this whole organization, NFAM.
    My daughter did a picture one time where she played a blind 
girl. I remember Barbara Streisand saying to Peter Bogdanovich, 
where did you find a blind girl who could act? He said, that 
isn't a blind girl, that is Diane Ladd and Bruce Dern's 
daughter, she is an actress. She was 14 years old. Laura went 
to the Blind Institute to study, to find out. She was a method 
actress without even knowing it, to find out what do you need 
to know, what are the experiences she doesn't know because none 
of us knows what it is like when you are sick, none of us know 
what it is like when that person loses somebody they love. We 
forget what it is like to wear each other's shoes.
    When my daughter went to the ball of the blind people, it 
was her graduation from high school year. She went to the party 
where the blind kids were having their party. She went into the 
bathroom and there was a little girl who could see but she 
couldn't hear and could hardly talk. It was just a little dark 
room with a little ball up there with lights and when Laura 
went back to dance, the child looked over her shoulder and 
looked at Laura, isn't it good? She experienced the greatest 
job whereas my daughter, who was at a private school, had a big 
shindig for graduation, Laura said, mother, none of those kids 
had as much joy as that child with the joy in her heart. Why is 
that? I said, Laura, it is a sad thing that man has to go 
through hell to get to heaven, that only when his body is 
starving or dying does he realize his soul can starve too.
    Like I said the arts have times when we are in great 
depression. Then we had men like FDR. Let us not do that with 
medicine, we will all be dead.
    Mr. Burton. Thank you, Ms. Ladd. Mr. Kucinich.
    Mr. Kucinich. I just wanted to say your story is quite 
compelling. As someone who has a great deal of respect for 
complementary and alternative medicine, I think it is important 
that you have come before Congress to share your story and your 
understanding because I think a lot of Americans can identify 
with it.
    Thank you for having the courage and the wisdom to pursue 
the path you have. Thank you.
    Ms. Ladd. You have just made my day. Thank you so much. It 
is my privilege and pleasure to have been here.
    Mr. Burton. Mr. Schrock.
    Mr. Schrock. Thank you, Ms. Ladd. That was very 
interesting.
    This really is all about prevention. If we did more 
prevention, then we wouldn't have to worry about the after 
effects of not taking care of yourself. I told you earlier 
years and years ago I used to think chiropractory was hocus 
pocus. Believe me it is not. It is absolutely right on. I work 
out heavily and I got to a chiropractor at least once a week 
and when I am home, twice a week. It has made all the 
difference in the world. My wife started going 5 years ago and 
she had a curvature of the spine and it is now ram-rod 
straight. It is absolutely amazing. I am a big fan of that.
    Proper diet is right. Before I got sick, I would eat 
anything the traffic could bear and I realize now that is just 
not right. Diet will certainly prevent a lot of these problems. 
A lot of the diet problems occur right in the schools. My wife 
is a kindergarten teacher and you would see some of the junk 
these kids eat and that is provided by the school system, we 
are creating a generation of kids that will have all these 
problems. That has to stop. When they sell McDonald's in high 
schools, we are a junk food society. I like McDonald's like 
everybody else, but when I eat it I may as well get a can of 
Crisco and eat it. We have to stop that and that is what we are 
doing to our kids.
    We are overmedicated. When I was going through my 
chemotherapy, they had me on more stuff and I was a different 
person when they did that. My wife's kids in kindergarten are 
on Ritalin, she has eight or nine kids on Ritalin in 
kindergarten and that is a terrible, terrible thing.
    I think what you are doing is wonderful and everybody 
else's testimony will attribute to that, will agree with that 
and we just have to make sure we get this message out. It is 
very, very important because when you don't have your health, 
you don't have anything.
    I appreciate what you do. Thank you.
    Mr. Burton. Mr. Tierney.
    Mr. Tierney. I have no questions. I want to thank the 
witness for her testimony.
    Ms. Ladd. My privilege.
    Mr. Burton. Mrs. Maloney, any questions?
    Mrs. Maloney. First of all, I want to welcome you and thank 
you for your many contributions to New York culture, the 
Copacabana, our theater and some of the movies that you starred 
in were filmed in our great city, so I appreciate very much 
your professional career and also speaking out on what is a 
very, very important subject and one that does not get enough 
attention.
    You mentioned three miracles in your own life and I often 
hear miracles from others diagnosed with cancer, they are going 
to die, they go on a special diet, they cure themselves, they 
are fine now.
    I would like to ask do you agree complementary and 
alternative treatment need to be proven safe and effective 
before patients decide not to take say traditional treatment 
but to follow a holistic item? I agree with my friend, 
Congressman Schrock, that we don't focus enough on prevention 
in our medicine. We don't focus on any treatment except coming 
up with a pill or a manufactured way to treat something. The 
whole focus from the NIH is not a holistic one; even 
environmental medicine or how the environment impacts us 
ignores it. I just don't think there is that much focus on it. 
What do you think we should be doing in government to advance 
this?
    Second, expand on the idea of where do you recommend 
holistic or the traditional method?
    Ms. Ladd. I recommend both. I recommend respect for the 
medical profession so that the people get their sugar, their 
TLC which we all need today, that it is worthwhile for their 
lives. I see you Congresspeople getting up and running to that 
bell, I pray for your adrenalin. It is hard to be a 
Congressperson, it is hard to be a doctor, it is hard to be a 
human being and in today's society, we are all in a mechanized 
world. You would think the faster paced society and the 
mechanized world would pull us closer together. Unfortunately, 
it is not doing it. It is alienating us one from the other.
    The high cost of living is accelerating greed in many areas 
in medicine and in culture and we are not always getting the 
quality of food, the quality of medicine, the quality of 
culture that we need. I think we need to look at all these 
issues. These issues have one goal, to make the world a more 
balanced, humane and harmonious place to live, especially our 
own country and for our kids.
    I said quite often, and I mean this, if I win all the 
Oscars in the world and leave the planet as a sewer for my 
grandkids to roll around in, I haven't done a damned thing. 
When it comes to medicine, there is a threefold healing 
process. Many diseases are caused by free radicals and free 
radicals are anger. I think we have to help each other not to 
judge too harshly. We are all in a state of shock over being 
judged. At the same time, we have to apply wisdom. That means 
we have to have mental healing for people, physical healing for 
people and spiritual. Spiritual means a lack of judgment. 
Mental is culture.
    I think many of the movies today are making people angrier. 
I think people are alienated and that is why they are looking 
at all these realism type TV shows to watch somebody eat bugs 
on TV. I don't want my kid watching this. I don't think this is 
a healthy thing. Where are the good shows where you could laugh 
and cry and respect human beings and get angry? I am not 
against even violence if violence teaches me something in a 
film or a story, the same way a medical doctor examines the 
waste from your body to try to heal your body but he doesn't 
recommend that you go out in the middle of the street to get 
rid of the waste.
    I think we have already found safety methods. I think our 
alternative modalities today have as many safety methods as 
traditional medicine. I think traditional medicine in many 
instances is a lot more detrimental and harmful than our 
holistic methods. People are going after them. People are 
getting smart in some areas.
    Ms. Maloney. What can we do as a government to really 
educate people about the importance of a healthy lifestyle, 
good nutrition and alternative medicine?
    Ms. Ladd. I think as a government you need to give some 
support and grants to those qualified great physicians that 
have proven themselves in an organization so powerful like the 
AMA. This is not chopped liver. These are doctors who have 
spent their whole lifetime. I am not saying there might not be 
one bad apple in the barrel, but that is life, that is karma, 
wherever you go, whatever you are dealing with.
    By and large we need to promote the best. Promoting the 
best gives a higher rate of involvement of understanding of 
wisdom. It is like that at the Library of Congress. That is the 
best. Just stand there and you will understand exactly what I 
mean. If you can see the best, if you hear a great singer hit a 
high note, if you hear that high note, something happens 
literally in your body. When you read a great book, how many 
are reading the great books today? When our children get the 
best, if we can help our children have the understanding and 
wisdom to select the best, they will have the brains to go 
after the best in medicine, after the best in culture.
    Anytime through our history and any civilization that 
culture and medicine has been shot down because of greed and 
selfishness, the civilization has gone to decay. This has been 
proven. Right now, we have a tax in many areas on good medical 
modalities that could help our human beings. I think the 
government has to make sure that helpful aids to humanity, 
healthful aids, is not stopped. If you go to a restaurant, you 
get food. If you find out that somebody is selling you rotten 
meat, they get closed down. If there is a complaint about 
manufacturing vitamins, fine, if it is bad or rotten, close 
them down but I don't think ever in a billion years should this 
ever be put under pharmaceutical companies or prescriptions. 
That would be tantamount to greed on the highest level and that 
would be horrendous to those old people or poor people who can 
afford a vitamin, they wouldn't be able to afford it. It would 
be such a sin, nothing more than a mistake, to take something 
and miss the mark.
    Help people not miss the mark. Help them fight for the 
best. You are all such intelligent people. My heart goes out to 
you as much as it does to my actors to try to do culture in a 
commercialized world, it is not easy to fight for truth and 
fair play. May God help you fight for proper, medical and 
proper alternative modalities. Insurance companies should cover 
alternative modalities. Detoxification of a human being, you 
get new cells every day. Everyday your body does 360 something 
billion cells tomorrow morning. How is that possible that you 
have that kind of machine?
    If you are polluted in there when they do those billion 
cells, they have to fight that pollution. Alternative medicine 
isn't anything but good sense and detoxification and finding 
food and massage and things that detoxify. That is all it is. 
The poorest Indian of eons ago knew that in his heart and soul. 
We know it in ours. We know it in our wisdom.
    Health, wisdom. There is knowledge and there is wisdom. 
Knowledge changes everyday. We find out tomorrow we should have 
done this. Wisdom supersedes knowledge for all of us and there 
are those people who would keep us from using our wisdom. Don't 
ever let that happen to you. Please help me, don't ever let 
that happen to me.
    Go talk to the AMA people, get a Gladys McGary and a Bob 
Anderson in here, get Christian Northrop who wrote those books, 
get Cynthia Watson from Beverly Hills who is doing it all, get 
Berkley Bedell in here. He has gone to 83 countries. You have 
the best out there fighting. Encourage that kind of caring and 
enthusiasm. If it is shot down, it may never come again in our 
kids' lifetime. Don't let it die. Fight for the good. That is 
all you can do is fight for the good and I beg of you to do 
that.
    Mr. Schrock [presiding]. Mrs. Morella.
    Mrs. Morella. Thank you, Ms. Ladd. I am not going to ask 
you any questions in the interest of time but we are very 
honored that you are here and gave us such a moving 
presentation of personal experiences.
    I want to thank you for the nutrition that you provide 
through your acting. I think the arts do provide a tremendous 
amount of sustenance to life. I have a son who is an actor and 
I would agree with what you said about an actor lives between 
chance and oblivion, but it is so very necessary. I am pleased 
this year that on the House side we have increased the amount 
of money for the National Endowment for the Arts and 
Humanities.
    I also note in you a personality trait that I think is part 
of what you exude in terms of health and that is you have a 
determination and an attitude which probably, as you said in 
your opening statement, is a kind of linchpin, a kind of 
spirituality. I commend you for that and I thank you very much.
    Ms. Ladd. Thank you. It has been my privilege and pleasure 
to be here today.
    Mr. Schrock. Ms. Ladd, thank you very much for being here. 
I was privileged to be the Navy's liaison to the motion picture 
and television industry for 4 years. I probably should not 
admit that but I was, so I understand exactly where you are 
coming from.
    Really, health is the most important thing we can deal 
with. When you say we are under pressures up here, you can't 
imagine sometimes and our health is impacted by that. So what 
you are doing is absolutely magnificent and I am really going 
to try to do my part up here because I know what good health is 
and I know what good health is not. There is no comparison.
    Ms. Ladd. I would like to respond to your comment about 
health through the arts, helping people. It is true, it is a 
proven fact that when you are watching actors, especially in a 
theater or a great show on television, which is very rare, when 
you cry it releases toxins and pains from your body and those 
who make you laugh actually release gas from your body and it 
is very good for your heart. Laughter is the most important 
commodity to have.
    As I said, science and art was once one and you can look up 
my website, www.dianeladd.com and go to the bottom of the left 
side where there is a group called ACT. It is an art and 
cultural task force of 160 professional actors who are fighting 
to try to create Stay Here Productions to help culture in our 
country. Congressman McCarthy of Missouri, who got that motto 
from Truman, ``The Buck Stops Here,'' has taken over my ball 
and is going to run with it on behalf of art and culture to try 
to do something. I hope you will all give her your support 
while I am supporting medicine.
    Mr. Schrock. Great. I think they say when you smile, you 
burn so many calories. Smile all the time and you can be slim 
and trim the rest of your life.
    I thank you and Mr. Hunter for coming here today. We hope 
you will come back again soon.
    Ms. Ladd. Thank you.
    Mr. Schrock. We are now ready for our second panel. Please 
rise and we will swear you in.
    [Witnesses sworn.]
    Mr. Schrock. Before we hear our speakers, let me yield to 
the ranking member, Mr. Kucinich.
    Mr. Kucinich. I want to thank the gentleman and welcome the 
witnesses. In particular, I want to welcome David Seckman. 
Thank you and I appreciate the opportunity to work with you in 
so many areas. And also, Dr. Larry Kushi. Dr. Kushi and I have 
known each other, our families have known each other a long 
time. His father and mother are the individuals most 
responsible in the world for promoting macrobiotics. I have 
learned much from both of them in following their writings and 
I have to say Larry Kushi has continued on the brilliant path 
of his parents in his own writings and his work. I just wanted 
to be here for a moment particularly to welcome you and to 
thank you and your family for your lifetime commitment to 
macrobiotics and to alternative health, and to peace.
    Thank you.
    Mr. Schrock. Mr. Seckman is the executive director and CEO, 
National Nutritional Foods Association of Newport Beach, CA. We 
are happy to have you here today. You are recognized to give 
your opening statement.

   STATEMENTS OF DAVID SECKMAN, EXECUTIVE DIRECTOR AND CEO, 
NATIONAL NUTRITIONAL FOODS ASSOCIATION; GEORGE BRAY, M.D., BOYD 
  PROFESSOR, PENNINGTON BIOMEDICAL RESEARCH CENTER, LOUISIANA 
STATE UNIVERSITY; LARRY KUSHI, ASSOCIATE DIRECTOR FOR ETIOLOGY 
     AND PREVENTION RESEARCH, DIVISION OF RESEARCH, KAISER 
PERMANENTE; PAMELA PEEKE, M.D., ASSISTANT CLINICAL PROFESSOR OF 
 MEDICINE, UNIVERSITY OF MARYLAND SCHOOL OF MEDICINE, ADJUNCT 
  SENIOR SCIENTIST, NATIONAL INSTITUTES OF HEALTH; TIMOTHY S. 
CHURCH, M.D., SENIOR ASSOCIATE DIRECTOR, MEDICAL AND LABORATORY 
 DIRECTOR, DIVISION OF EPIDEMIOLOGY AND CLINICAL APPLICATIONS, 
THE COOPER INSTITUTE; AND DAVID HEBER, M.D., DIRECTOR, DIVISION 
 OF CLINICAL NUTRITION, UNIVERSITY OF CALIFORNIA AT LOS ANGELES

    Mr. Seckman. Thank you for the opportunity to address the 
committee with respect to the dietary supplement industry.
    I am David Seckman, executive director and CEO of the 
National Nutritional Foods Association. NFA was founded in 1936 
and is the oldest and largest trade association in the natural 
products industry. We represent the interests of more than 
3,000 health food stores, thousands of manufacturer-suppliers 
and distributors of health foods, dietary supplements and 
related items.
    The committee has asked that I address the economic 
opportunity for improving health through diet, physical 
activity and the use of dietary supplements. In addition, I 
will also address the importance of natural foods and diet as a 
tool for disease prevention and health maintenance.
    First, let me say that I believe this hearing is occurring 
at a very fitting time, both in terms of some of the critical 
health issues we are facing today and emerging recent 
scientific research. There are probably few Americans who have 
not heard about our Nation's newest epidemic, obesity. Even our 
President has carved time from his own pressing schedule to 
personally address and champion physical activity and a healthy 
diet in combating this problem. Hopefully President Bush's 
involvement in this issue has served as a wake up call to all 
Americans. That call can't come soon enough.
    This year, the Centers for Disease Control estimated that 
approximately 47 million Americans will suffer increased risk 
of a whole host of serious illnesses, including heart disease 
and cancer due to poor nutrition and physical inactivity. As if 
this news weren't bad enough, the CDC also estimates that the 
problem increases exponentially with age.
    Having worked for many years in the long term care 
industry, I have witnessed firsthand how declining health in 
older Americans negatively impacts not only the patient but 
family members and society as well. One of the most devastating 
effects of a poor diet and inactivity is experienced by older 
Americans. This group is by no means the only population 
affected. The percentage of children and adolescents who are 
overweight has more than doubled since the 1970's. Today over 
13 percent of our children and 14 percent of our teenagers are 
considered obese. These figures continue to rise each year, 
paving the way for increased health problems in adulthood.
    Between the ages of 40 and 60, 1 in 3 will feel the effects 
of a lifestyle that favors fast food and inactivity. These are 
prime earning years for many adults whose professional and 
economic contributions to society will be severely or 
completely curtailed.
    It is estimated that treating obesity related health 
problems in the United States exceeds $117 billion annually. 
Diabetes alone, which has a direct connection to obesity, 
accounts for more than $45 million each year.
    The reason my organization was formed more than 65 years 
ago was to support the growing number of consumers looking to 
make healthier choices about the foods they eat. Much of what 
the followers of this trend believed based on empirical 
evidence and common sense has been borne out by science over 
the years.
    For instance, whole, unprocessed and fortified foods has 
always been an important aspect of the natural or health food 
industry. Processing can eliminate some or all of a product's 
health qualities such as fiber and essential nutrients. Foods 
such as these that have retained their health benefits can be 
recognized by FDA authorized claims on the label such as fiber 
from whole oats can reduce the risk of coronary heart disease.
    It is important to keep in mind that whatever the health 
claim, the FDA requires substantial scientific proof that it is 
correct.
    Since I am on the subject of vitamins and minerals, let me 
make a transition into the more generic topic of dietary 
supplements and their role in human health. The term dietary 
supplement encompasses a wide range of products that include 
essential nutrients, herbal remedies and what we call specialty 
supplement products comprised of natural ingredients like 
enzymes and amino acids.
    When Congress unanimously passed the Dietary Self Help and 
Education Act in 1994, it acknowledged there may be a conection 
between dietary supplement use, reduced health care expenses, 
and disease prevention. In fact, current research is bearing 
out this very supposition.
    For example, the American Medical Association recently 
reversed its position on the value of taking a daily 
multivitamin suggesting that every adult would benefit from a 
daily multivitamin. This study is particularly important 
because our research indicates that physicians often do not 
discuss supplementation with their older patients.
    Other landmark studies include two published relating to 
the delay and lessening of symptoms of Alzheimer's disease by 
patients who took the herb ginko, Vitamin C and E. Not only has 
research demonstrated the health benefits of dietary 
supplements in foods, it has also shown they can reduce health 
care costs by billions of dollars.
    For example, a major medical journal reported that 
increased intakes of Vitamin E, folic acid and zinc could save 
$20 billion annually in hospital costs by reducing heart 
disease, birth defects and premature death. Alzheimer's disease 
costs Americans $61 billion a year in lost productivity from 
absenteeism of employees who care for family members and 
businesses that share health and long term health care costs.
    Even this modest reduction in symptoms and the delay of 
onset of this disease can save billions of dollars. Clearly 
dietary supplements as a whole, not just vitamins and minerals 
are beginning to get the research they deserve.
    Stimulating a good deal of this research is funding from 
two groups under the National Institute of Health's umbrella, 
the Office of Dietary Supplements and the National Center for 
Complementary Alternative Medicine. Both play a vital role in 
providing consumers with accurate and reliable information 
about alternative treatments and therapies.
    The recent questions raised about hormone replacement 
therapy which could affect an estimated 42 million American 
women underscores the need for more research and more 
information about safe and effective alternatives. More 
information about the qualities of dietary supplements is 
critical and so is access to them. Bills like Chairman Burton's 
Tax Fairness Act would allow taxpayers to deduct amounts paid 
for foods for dietary supplement uses, dietary supplements or 
medical foods as medical expenses.
    We also agree with Chairman Burton that food stamp 
recipients should be allowed to use their benefits to purchase 
dietary supplements. Although this amendment which was added to 
but ultimately removed from the most recent farm bill failed to 
become law, we hope this issue will be pursued in future 
legislation.
    Without question, combining a nutritional diet and an 
appropriate supplementation with physical activity not only 
reduces the risk of contracting a host of ailments, it improves 
quality of life for every age group. The body of research about 
the health benefits of a nutrient rich diet is impressive but 
needs to be expanded, particularly in the area of dietary 
supplements.
    While funding for research in this area has continued to 
grow, further investigation of the role of dietary supplements 
in maintaining optimum health is critical. Congressional 
hearings such as this one make strong impressions on the minds 
of Americans about the issues they cover. Often these issues 
are negative and the focus is on what went wrong and how can it 
be fixed.
    I want to thank the chairman and members of the committee 
for taking time today to examine what is right about 
nutritional foods and dietary supplements.
    [The prepared statement of Mr. Seckman follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.038
    
    [GRAPHIC] [TIFF OMITTED] 81866.039
    
    [GRAPHIC] [TIFF OMITTED] 81866.040
    
    [GRAPHIC] [TIFF OMITTED] 81866.041
    
    [GRAPHIC] [TIFF OMITTED] 81866.042
    
    [GRAPHIC] [TIFF OMITTED] 81866.043
    
    [GRAPHIC] [TIFF OMITTED] 81866.044
    
    Mr. Schrock. Thank you, Mr. Seckman.
    As you can hear, we have a vote. It is one vote. I think we 
will just recess for a few minutes. We will be back as quickly 
as we can and will continue then.
    [Recess.]
    Mr. Schrock. I want to recognize Dr. George Bray, a Boyd 
professor at the Pennington Biomedical Research Center at 
Louisiana State University in Baton Rouge. We are delighted to 
have you here and look forward to your opening statement.
    Dr. Bray. Thank you for the opportunity to participate in 
this hearing this morning. I won't read anything. I will make a 
few comments about the relationship of obesity and its 
treatment and the use of dietary supplements and over the 
counter products in that regard.
    My interest has been peaked in this area by a man named Mr. 
Pennington who provided the money to LSU to build the 
Pennington Biomedical Research Center which I directed for a 
decade. Mr. Pennington was, he thinks, cured of his cancer very 
much like your story for 25 years from taking a group of 
vitamins. He believes it was B12, I am not sure which one it 
was, but because of his belief in this area, when he was making 
his donations, he provided $125 million to Louisiana State 
University in 1980 to develop a nutrition research institute. 
That is the basic work that our facility has been doing since 
the completion of those buildings.
    Obesity, my area of interest, is an epidemic and I wanted 
to show you two figures. Dr. Dietz could do this but he said he 
wasn't, so I will. This is the behavioral risk factor survey 
data from 1989. I use it in color because it shows clearly the 
prevalence of obesity, less than 10 percent in yellow, 10 to 15 
in green and there are no red States on this map. Ten years 
later, using the same survey techniques, you can see that only 
a handful of States are not now in this high risk category. So 
the epidemic as we all know, is a big and serious one.
    It is also an expensive one with major risks. Data from a 
paper in 1989 looking at attributable risk for physical 
inactivity and obesity are causally related to diabetes, heart 
disease, hypertension, gall bladder disease and osteoarthritis. 
In those data, obesity can account for up to 70 percent of 
diabetes, 40 to 50 percent of gall bladder disease, 
hypertension and heart disease and 7 to 27 percent of cancers 
and osteoarthritis. Physical inactivity on the other hand is of 
the order of 5 to 20 percent. So obesity is a major epidemic 
with major health risks and high cost associated with it.
    I was pleased to have Ms. Ladd's testimony earlier. She 
used at the end, the title of my testimony which is ``Don't 
throw out the Baby with the Bathwater.'' Having a major 
epidemic we need things to do to overcome it, to provide 
American citizens with ways to deal with it when they are 
afflicted with the problem. The broader those options, the more 
likely we are to be effective.
    When I was preparing for this testimony I went out to my 
health food stores to see what sorts of over the counter 
products there were and a number were available. I will have 
some suggestions about ways that might improve the public's 
ability to make decisions about using those supplements at the 
end.
    Two additional points. Small weight losses can be highly 
beneficial in reducing the risk for the diseases I described 
earlier. In a study of which we are a part that is funded by 
the National Institutes of Health, called ``The Diabetes 
Prevention Program,'' weight losses of 3 to 7 percent reduced 
by 58 percent and 31 percent the risk of people who are at high 
risk for diabetes from actually becoming diabetic.
    If you translate that into a 3-year delay in the 
complications of this disease, it saves billions of dollars by 
reducing the risk for human dialysis, for renal failure, for 
amputations, for blindness and other complications associated 
with diabetes. So modest weight losses can be highly 
beneficial.
    The dietary supplements that are available, particularly 
the ephedra-caffeine combinations have clear evidence from 
clinical trials of up to 6 months suggesting that the weight 
loss in the treating group is substantially larger than placebo 
and in the range that would be associated with these reductions 
in risk that were demonstrated in diabetes prevention programs.
    If we could get small weight losses, we would have a major 
improvement in the health of the American public and that would 
be highly beneficial.
    Let me read the three recommendations that came from my 
survey and I will finish. I want to read these so they are 
clear. First, provide clear and unambiguous labels on packages. 
All packages should be labeled so that consumers can find out 
what is in them. I found at least one that had no labeling 
information on it at all. Labeling should be improved to help 
consumers make choices. I found products with the same trade 
name having very different labeling of internal ingredients 
which can be confusing. It was confusing to me as a 
professional and certainly could be to the public. Having 
multiple packages with the same trade name but with different 
combinations makes selection difficult.
    Second, standard dosing and use good manufacturing 
practices in preparing them, providing the public with 
assurance that the amount of active ingredients in each package 
is standardized by analytical testing and comparable from lot 
to lot would provide them with assurance that they are getting 
what they think they are purchasing.
    Finally, encouraging research, providing financial 
incentives for manufacturers that conduct research to establish 
efficacy and safety of their products might be an important way 
to get this research done. Premarketing research should be 
particularly rewarded because knowing that the materials you 
are taking are safe and effective before they are available has 
real advantages to the public.
    Thank you for the opportunity to testify and I would be 
happy to answer questions.
    [The prepared statement of Dr. Bray follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.045
    
    [GRAPHIC] [TIFF OMITTED] 81866.046
    
    [GRAPHIC] [TIFF OMITTED] 81866.047
    
    [GRAPHIC] [TIFF OMITTED] 81866.048
    
    [GRAPHIC] [TIFF OMITTED] 81866.049
    
    [GRAPHIC] [TIFF OMITTED] 81866.050
    
    [GRAPHIC] [TIFF OMITTED] 81866.051
    
    [GRAPHIC] [TIFF OMITTED] 81866.052
    
    [GRAPHIC] [TIFF OMITTED] 81866.053
    
    Mr. Schrock. Thank you very much.
    We are happy today to have from California, Dr. Larry 
Kushi, the associate director of etiology and prevention 
research, division of research, Kaiser Permanente in Oakland, 
CA. Thanks for coming all the way from the West Coast. We look 
forward to your opening statement.
    Dr. Kushi. Thank you for the opportunity to describe to you 
some of the strong and consistent scientific evidence that 
plant based eating patterns are perhaps the most helpful way of 
eating.
    I am honored to be invited and thank the committee for its 
interest in how Americans can improve their health through diet 
and lifestyle choices.
    I have a degree in nutrition and training in epidemiology 
from the Harvard School of Public Health. As mentioned, I now 
work at Kaiser Permanente.
    As Representative Kucinich mentioned, my parents are 
credited with popularizing the macrobiotic way of life, the 
macrobiotic diet which is a central part of macrobiotics, a 
predominantly vegetarian diet emphasizing minimally processed 
whole foods. Among other things, it may be the most popular 
alternative comprehensive lifestyle approach to management of 
cancer.
    The central role that macrobiotics and my parents has 
played as a catalyst for the natural foods industry and for 
inspiring many people in the complementary and alternative 
medicine field led the Smithsonian Institution to start a 
collection of works related to their work. As you may recall, 
my father actually testified before this committee in 1999.
    Because of my personal and professional background, some 
say I have a unique perspective on what I can say on this 
topic. I am not sure how unique I am in that way but I will say 
my comments today are uniquely my own and don't necessarily 
reflect Kaiser Permanente's views or my parent's views.
    As the committee members are aware, there is a tremendous 
interest in diet and health in the United States. For example, 
I will show you a couple of publications published 2 weeks ago, 
one from the New York Times, ``What if fat doesn't make you 
fat?'' and inside it says, ``What if it has all been a big fat 
lie?'' The same week, Time Magazine published this cover story, 
``Should you be a vegetarian?'' Clearly there seems to be a bit 
of contradiction here. I am going to say the answer to both of 
these questions is probably yes and there isn't really a 
contradiction. There is a contradiction probably in the way 
Gary Taubes talked about fat and the Atkins diet in the New 
York Times article.
    Let me make my views a little clearer. Basically, this 
article ignored certain fundamental truths about diet and 
health that can be gleaned from an epidemiologic perspective. 
We know, for example, there are tremendous variations in cancer 
and heart disease rates around the world. For example, with 
breast cancer, in which I have done a fair amount of work, 
there is a five to tenfold difference in breast cancer rates 
comparing countries in Asia versus the United States.
    We know despite NIH's emphasis on molecular biology and 
genetics that most of these differences are not due to 
fundamental differences in biology but rather to the lifestyle 
choices we make, the foods we eat, the physical activity we 
get, whether we smoke or not, the reproductive choices we make. 
And we know this because people who come from low incidence 
countries, such as Japan, and move to the United States, take 
on the disease experience of people in the United States rather 
than maintaining that in their home country.
    Two areas of the world that attract considerable interest 
regarding diet and disease relationships are the Mediterranean 
area and East Asia because they have both good quality disease 
registries as well as good documentation of eating habits. 
There is tremendous variation in the amount of fat in these 
diets. The traditional Japanese diet has about 10 percent of 
calories from fat whereas the traditional Mediterranean diets 
can range up to 40 percent of calories from fat. So the overall 
question, does fat make you fat, or does fat intake make a 
difference in overall health, perhaps is not the appropriate 
focus of what public health policy should have been.
    For comparison, in the United States our average fat intake 
is about 34 percent of calories and many of our recommendations 
have said we should be consuming 30 percent of calories from 
fat. This focus on fat may have been misguided public health 
policy.
    Despite fat intake differences there are tremendous 
commonalities between the Mediterranean and East Asian dietary 
patterns. There is an emphasis on plant foods in terms of what 
people have eaten traditionally, and there is minimal use of 
animal food. There is a substantial literature on this topic. I 
have provided some copies of a few articles that I wrote on 
this topic to the committee.
    I served as a member of the American Cancer Society's 
committees to develop dietary guidelines for the prevention of 
cancer in 1996 and again in 2001. In both cases, the committee, 
not just my view, but all committee members, agreed there was 
substantial evidence that the prevention of cancer can be 
helped through the adoption of plant based diets, deemphasizing 
meat and emphasizing whole grains, fruits and vegetables.
    There have been a couple of good, randomized trials of 
plant based diets demonstrating they really are effective in 
promoting health and preventing cardiovascular disease. The 
Ornish trial mentioned by Congressman Burton in his 
introduction is one example, using a very low fat diet. The 
Lyon Diet Heart Study is another example, using a Mediterranean 
type diet with about 30 percent of calories. So you have two 
different studies, using different dietary patterns with 
emphasis on plant foods but differing in fat intake, that 
demonstrates that these types of dietary patterns can really 
help in promoting health.
    As I mentioned, my parents have been leaders in 
macrobiotics. The macrobiotic diet is also characterized by an 
emphasis on whole, minimally processed foods. I also provided a 
copy of a paper to the committee we recently published last 
year about macrobiotics and cancer. Among the things in that 
paper was a picture of a pyramid which is sort of a takeoff of 
the USDA food guide pyramid. Unlike the USDA food guide 
pyramid, the macrobiotic pyramid my father drafted and promoted 
emphasizes plant foods and doesn't suggest that eating red meat 
on a regular basis is compatible with good health.
    We also received funding from the NIH Office of Alternative 
Medicine to compile and document a series of cases of 
individuals who had used macrobiotics for cancer and appeared 
to benefit from this use. While the amount of funding was 
extremely small, we are still in the process of completing the 
best case series. I should mention some of my colleagues at the 
University of South Carolina are helping with that as well as 
the Kushi Institute, an organization my parents founded.
    In that context, this past February 25, we presented six of 
these cases to the NIH Cancer Advisory Panel on Complementary 
and Alternative Medicine. While we are still waiting for the 
final report from the meeting, it did conclude that the cases 
we presented provided compelling rationale for further funding 
and research into macrobiotics and cancer care. I believe these 
cases we presented were quite remarkable, including a case of 
lung cancer which I detail in my written testimony, as well as 
several other cases of cancer.
    In the meantime, the NIH has funded a couple of randomized 
trials of plant based diets on the recurrence of breast cancer. 
There is substantial literature growing related to diet and 
cancer treatment and breast cancer which I reviewed in this 
book, ``Breast Cancer: Beyond Convention.'' I wrote one of the 
chapters, and it is edited by others.
    Basically, I would like to emphasize that current 
scientific evidence really does point toward plant based whole 
food diets for the prevention and treatment of major chronic 
diseases, including heart disease and cancer. The macrobiotic 
diet that I am familiar with for personal reasons is one 
example of such a diet.
    I thank the committee members for this opportunity.
    [The prepared statement of Dr. Kushi follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.054
    
    [GRAPHIC] [TIFF OMITTED] 81866.055
    
    [GRAPHIC] [TIFF OMITTED] 81866.056
    
    [GRAPHIC] [TIFF OMITTED] 81866.057
    
    [GRAPHIC] [TIFF OMITTED] 81866.058
    
    [GRAPHIC] [TIFF OMITTED] 81866.059
    
    [GRAPHIC] [TIFF OMITTED] 81866.060
    
    [GRAPHIC] [TIFF OMITTED] 81866.061
    
    [GRAPHIC] [TIFF OMITTED] 81866.062
    
    [GRAPHIC] [TIFF OMITTED] 81866.063
    
    [GRAPHIC] [TIFF OMITTED] 81866.064
    
    Mr. Schrock. We are glad to welcome Dr. Peeke here today. 
You have heard her mentioned a few times. Dr. Peeke is the 
assistant clinical professor of medicine, University of 
Maryland School of Medicine, and also an adjunct senior 
scientist, National Institutes of Health. We are delighted to 
have you here and look forward to your testimony.
    Dr. Peeke. It is an absolute delight to be here. I also 
wish to acknowledge my distinguished guest, Irene Pollin, who 
is the founder and executive director of a new national program 
called Sister to Sister which will acknowledge heart disease in 
women for education screening purposes.
    You read an advertisement about nutrition or dietary 
supplements and what does it always end with? Before doing any 
of this, please consult your physician, the one person who 
knows less than you do. The ultimate nightmare for any 
physician in America today is during the 8 minutes allocated 
for a patient visit, a patient comes in with what we now refer 
to as the Internet printout under the armpit sign which means 
they have scanned the Internet, they have many questions, most 
of which we can't answer because they have to do with a topic, 
nutrition, that is now not taught actively or a required topic 
in the majority of medical schools in this country.
    I am a bit of a mutation because after 11 years of critical 
care and trauma as an intensivist, I went back into academia as 
a Pugh scholar at the University of California at Davis where I 
had to, with a couple of colleagues, spend a couple of years 
learning nutrition and metabolism which is tough stuff, it is 
biochemistry. Then I came to the National Institutes of Health 
after that. What I found was that across America as I began to 
look at the medical curriculum in nutrition, there was none. As 
I teach at the University of Maryland, what I find is that the 
classes are standing room only, they are still voluntary not 
required and that interestingly who attends these classes are 
also the attendings, residents, interns and not just the 
medical students. There is an avid interest in this, if not 
just for our survival sake when our patients come in and ask 
these questions and we have so little information.
    So I speak first to the salient point of a gap and the gap 
in the knowledge on the part of the medical professionals 
nationally, clearly anything that you can do to be able to help 
us with that would help all of us and the consumer in the end.
    I will now speak to another gap, a gap that I had addressed 
in my testimony. What I was really trying to drive home was the 
issue of a brand new way of looking at this issue of obesity, 
nutritional deficiency, and that is looking at a new field of 
intellectual as well as academic concern. We now call it gender 
specific medicine after the work done by my colleague, Marianne 
Magado at Columbia University and others and clearly being put 
forth by the National Institutes of Health and the Office of 
Women's Research and Dr. Vivian Penn's excellent work as well 
as that of the HHS Division.
    Here we are looking at a very interesting question. When 
you look at obesity, look at the unfitness of Americans, is 
there something that is gender specific about that per se? We 
have never really looked at that in a significant way until in 
2001 we published the findings of a milestone report by the 
Institute of Medicine, a Committee on Understanding the Biology 
of Sex and Gender Differences. It asked a provocative question, 
does sex matter? The answer? Yes.
    We found that scientists were able to turn their attention 
to issues of everything from behavior and perception to 
lifestyle, the metabolism of drugs, to physical activity. Women 
and men do things differently, both of which need to be 
honored. It is no longer just about women's health and men's 
health. It is about gender specific medicine, one learning from 
the other's strengths and vulnerabilities.
    What have we learned? During the endocrinological 
milestones of a woman's life which involve the onset of 
menstruation, pregnancy and her periomenopause, interesting 
things take place. What we have found in recent monographs is 
that during that time everything from depression to diabetes to 
asthma, epilepsy, migraine, are all worsened especially when a 
woman is unfit. We have been looking at this closer in the pre-
menstrual period and now we are looking in the periomenstrual.
    What does this mean? This means that during this period of 
time when a woman is trying desperately to maintain a healthy 
lifestyle, it is rather difficult. These are physiologic and 
biologic interferences that need to be honored. Interestingly, 
the herbal industry has been looking at this very closely, 
certainly with the current evidence-based medicine that has 
been generated, looking at black cohosh, for instance, but 
there is a paucity of data in this certainly with the new 
evidence that has emerged over the last couple of weeks with 
regard to hormonal replacement therapy and there issues 
thereof, we now turn our attention to again a woman's fitness, 
mind and body, during these endocrinological milestones and 
during the menopause.
    We look at specific foods, for instance, phytoestrogens 
which were just mentioned. These are plant estrogens. Are they 
better for a woman, are they helpful? Absolutely. There is no 
question about that. We look at all kinds of new products like 
energy bars, this one in particular. What does it say? Soy, 
heart healthy. We never really looked at this before. Is this 
something that might be able to augment a woman's wellness 
during this time? Absolutely. No question.
    We look at issues of obesity and fitness. One of the things 
we have never really looked at in a significant way before was 
the whole issue of diversity, ethnic diversity. Thirty-four 
percent of women, as Congresswoman Morella noted, are obese 31 
percent of men. Among women there are important racial 
differences. Blacks, 48.6 percent, Mexican-American, 47.2 
percent and these women are much heavier than the Caucasian 
women, 33 percent, there are real differences among these 
ethnic groups with regard to the kind of incidence of disease, 
for instance, diabetes.
    For men, interestingly, White and Black men have almost 
identical numbers of incidence of obesity, 31.6 percent and 
31.2 percent and yet 39.2 percent of Mexican-American men are 
overweight.
    Have we spent enough time looking at this, not just in 
terms of gender differences but also in terms of ethnic 
diversity, absolutely not. We need much more information with 
regard to this.
    Let us look at the psychological issues. You tell a man or 
you tell a woman, go ahead and get fit. Here is the template 
and you are going to hear excellent templates, everything from 
vegetarianism to physical fitness. What happens when a man and 
woman pursue this? What are the differences, the obstacles?
    Interestingly, it is the mind in a lot of this. For 
instance, in a man's mind, he could be 105 percent of ideal 
body weight and still look in the mirror and see himself as 
thin and fit. Over 43 percent of women who are absolutely of 
normal weight and quite fit see themselves as overweight and go 
out of their way to torment themselves with more what I refer 
to as science fair projects or every diet fad that comes down 
the block, interfering with one of the most important things we 
need to look at, new avenues of science, not just weight, not 
about weight, it is about fitness, about body composition, 
about body fat.
    If you look at a woman's body as she begins to evolve 
through her periomenopausal years after the age of 40, you will 
find there is a transformation. One of my female patients once 
told me, I am 45 years old, all of my life I have looked like 
an hour glass and I have looked at my body today and suddenly 
it is changed, I am not an hour glass anymore, I look more like 
a shot glass. In saying so, she noticed she was filling in. Was 
this more than just an aesthetic eyesore? Absolutely more. Why? 
Because she was adding weight to one of the most pieces of her 
body and that was the intra-abdominal area. We never knew this 
before.
    By placing too much weight there, depositing there through 
a lack of physical activity in addition to abnormal eating 
patterns, clearly she is increasing her morbidity and mortality 
risk for everything from heart disease to diabetes to cancer. 
You do not have to be overweight significantly or even obese 
for this to happen. It is no longer just what you weigh, it is 
where you weigh it.
    If you look at the current guidelines of the American Heart 
Association from this week, they are now asking that waist size 
now be looked at very closely as one of the greatest predictors 
and criterion for looking at disease morbidity and mortality, 
certainly for heart disease than just standing on a scale and 
looking at that specific number. Women are greatly affected by 
this. Women are more greatly affected by diabetes.
    Going back to the mind for another moment, if you look at 
the mind, you look at the mind of a woman who needs to go out 
and take care of herself, what do you see? The No. 1 stressor 
of a woman, globally, is caregiving. Frankly, women will 
caregive anything that comes within 20 feet of them and usually 
defer anything in their own self-care to be able to accomplish 
this goal which is usually lethal for them because they never 
get to their self care.
    Men are much smarter. They compartmentalize, they are 
highly focused, they are able to achieve that goal. Women's 
caregiving gets in the way. Clearly as they go through each 
decade of life, we just caregive different groups of people. So 
this must be understood.
    Where are the easy to access parks for women to be able to 
walk with their strollers? How can we make it easier for women 
who have to caregive sick ones to be able to get that physical 
activity, to be able to access that healthy food vegetarian or 
otherwise? Are we making that possible?
    Finally, in science itself, if you look at everything from 
a hormone called leptin and its concentrations in women, women 
have higher concentrations as they get more obese. Leptin is 
supposed to be able to regulate their appetite and ability to 
maintain more healthy body fat. What happens here? There is a 
difference.
    Look at some of the findings of the Institute of Medicine's 
report which are really quite astounding. Cigarette for 
cigarette, if a woman smokes exactly the same number of 
cigarettes as a man, she has 50 to 72 percent greater risk of 
lung cancer. We metabolize things like nicotine very 
differently. We do not do heart attacks the same as men do. We 
don't clutch the chest and drop to the floor. We have 
epigastric distress, perhaps a little stomach aid as mentioned 
before might be able to help. It doesn't. Usually these women 
will come in now sicker because they didn't know they had heart 
disease all along.
    What are we doing to be able to educate women nationally 
about this phenomenon? Most women don't know that. They are 
more terrified of breast cancer than heart disease, yet the No. 
1 killer of women is heart disease.
    In putting together programs and services nationally, I 
think now we are going to have to look at the issue of gender 
and also racial diversity as we have never done before to be 
effective and to be meaningful.
    Thank you.
    [The prepared statement of Dr. Peeke follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.065
    
    [GRAPHIC] [TIFF OMITTED] 81866.066
    
    [GRAPHIC] [TIFF OMITTED] 81866.067
    
    Mr. Schrock. Dr. Church, welcome. Dr. Church is a senior 
associate director, medical and laboratory director, division 
of epidemiology and clinical applications, the Cooper Institute 
in Dallas. We are glad you are here today and look forward to 
your testimony.
    Dr. Church. I have some slides.
    First, it is an honor and privilege to be here and be a 
part of such an esteemed panel.
    The Cooper Institute was founded in 1970 by Dr. Cooper, as 
a non-profit research institution. Its original mission was to 
examine the role of exercise in the maintenance of health and 
function. Since that time, our mission has broadened 
considerably. To date there has been over 650 published works 
to come out of the Cooper Institute and the works have 
influenced major national policy initiatives from NIH, the 
American Heart Association, and the Centers for Disease Control 
and Prevention.
    We are probably most famous for the Aerobics Center 
Longitudinal Data base, a data base consisting of over 70,000 
Cooper Clinic patients, some of whom have been followed up to 
30 years. This data base is so unique because of the fact that 
nearly every one of these individuals had a fitness test. They 
got on a treadmill and went to exhaustion. That is the max 
treadmill fitness test. No other data base in the world is 
greater than 10,000 which has max treadmill fitness test.
    This is representative of some of the work that has come 
out of our group over the year. This slide shows CVD death 
rates across levels of fitness. On the left we have women and 
on the right we have men. You can see with increasing levels of 
fitness, you have dramatic dropoffs in CVD death rates. Often 
this is attributed to obesity. Individuals who are higher fit 
have lower rates of obesity.
    We can see in this the left set of bars is lean, the middle 
set of bars is normal weight and the right set of bars is 
overweight. The pink bars are unfit, the yellow bars are fit 
and you can see at every single weight, there is a great 
benefit to being fit as compared to unfit. Even in obese 
individuals there is a tremendous advantage for risk of 
mortality for being fit compared to unfit.
    We have a number of ongoing studies. We have an outstanding 
study going on now examining the role of exercise in the 
treatment of depression. We have an army looking at the role of 
exercise in weight loss and long term weight maintenance. We 
have a very exciting NIH funded study going now looking at 
different doses of exercise and risk factor reduction of post 
menopausal women.
    I was specifically asked to spend some time commenting on 
the Cooper clinical trial which has just completed, so a lot of 
this data is literally right out of the computer. The trial 
ended last week. This was a placebo controlled, double blinded 
study consisting of over 200 participants with a 6-month trial 
period. Placebo controlled means that half of the study 
participants received a placebo and they didn't know they were. 
The other half received a vitamin and they didn't know they 
were receiving the vitamin. They don't know what they are 
getting, we don't know what they are getting. It is not until 
the end of the study when we break the code that we find out 
who got what. It is very important. This was a privately funded 
study and it cost approximately $300,000.
    The primary outcomes of the study were homocystine, an 
amino acid found in the blood and a known risk factor for 
Alzheimer's disease and cardiovascular disease. Another primary 
outcome was oxidized LDL, a particularly bad type of 
cholesterol. The last primary outcome which was added during 
the course of the study was C reactive protein. C reactive 
protein is an inflammatory marker found in the blood. It has a 
risk factor for diabetes and cardiovascular disease.
    I want you to look at the highlighted number at the top and 
the bottom of the screen. This shows how difficult it is to run 
these studies. We phone screened nearly 1,300 people at this 
time to complete 176. It takes quite a bit of work to run one 
of these studies.
    These are the characteristics. You can see we have an even 
distribution of men and women, average age is 50 years, and BMI 
was 26.
    You are always going to be looking at the vitamin group on 
the left two bars and on the right two bars, it is always going 
to be the control group. In this instance, we are looking at 
change in Vitamin C and change in betacarotene. This is change 
in the blood. As you can see there was a 60 percent increase in 
Vitamin C and a 60 percent increase in the betacarotene in the 
group that received the vitamin with no changes in the control 
group.
    Same type of slide. There was a 100 percent increase in 
Vitamin E and a 50 percent increase in folic acid in the blood 
of the individuals who received the vitamins compared to the 
controls.
    There was a 273 percent increase in Vitamin B6 and a 55 
percent increase in Vitamin B12. Why is this important? This 
shows if you take a multivitamin, it gets into our blood, not 
just simply going out the way it came in.
    Looking at our outcomes, there was a substantial decrease 
in homocystine in the vitamin group, nearly a 17 percent 
decrease. This is particularly interesting when you realize 
that folic acid is currently being supplemented in many of the 
grains we eat today.
    Both these slides show the same thing, just measured 
differently. The individuals taking the multivitamin, there was 
a significant decrease in LDL oxidation meaning there was less 
of this bad cholesterol.
    This is particularly provocative showing that a 
multivitamin lowers C reactive protein. This has never been 
examined before. We hope to submit this next week. C reactive 
protein is receiving a lot of attention because of its strong 
associated risk with diabetes and cardiovascular disease.
    This is an important point. We saw no change in plasma 
glucose and it is important because in our pilot data, we saw a 
very large drop in plasma glucose in individuals who took a 
multivitamin but that was simply pilot data. These things need 
to be tested. When we rigorously tested it we saw no change in 
plasma glucose. It is important that these things be tested at 
the right study protocols.
    In our findings we found that serum vitamin levels 
increased greatly with a multivitamin use. Individuals who took 
multivitamins had a decrease in homocystine, LDL oxidation and 
C reactive protein.
    Thank you for this opportunity.
    [The prepared statement of Dr. Church follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.068
    
    [GRAPHIC] [TIFF OMITTED] 81866.069
    
    [GRAPHIC] [TIFF OMITTED] 81866.070
    
    Mr. Schrock. Thank you very much.
    Dr. Heber, welcome. Dr. Heber is the director of the 
division of clinical nutrition at the University of California 
at Los Angeles. We are glad to have you and look forward to 
your testimony.
    Dr. Heber. Health has no party line identification. I want 
to thank Congressman Burton for his leadership role and the 
many conversations I have had with Beth Clay over the last few 
months.
    I want to confine my comments to a very few brief areas.
    In the late 1970's, the State of California passed a law 
providing funding for a professor of nutrition at each of the 
University of California Medical School campuses. I was the 
first appointee at UCLA in 1983. Since 1985, we have had one of 
two National Cancer Institute funded Centers for Nutrition and 
Cancer Prevention. There are only two in the country and the 
other is Sloan Kettering and the American Health Foundation.
    Those green boxes in the middle represent core laboratories 
of that Clinical Nutrition Research Unit. When I go back to 
California tomorrow, I will have my laboratory meeting with 
four assistant professors, two associate professors and seven 
research fellows, conducting research not only on nutrition and 
cancer prevention but also the box below the pink box is one of 
four nutrition obesity training programs in the United States 
funded by the NIDDK. This money was made specifically available 
in response to the earmarking by Congress of obesity as a 
national issue.
    The top box represents an additional three core 
laboratories which we competed for in 1999 through the Office 
of Dietary Supplement Research represented today by Dr. Paul 
Coates whose testimony you will hear later. I wanted to 
indicate that UCLA as far as I know is the only university that 
has all three of these coordinated within a center for human 
nutrition in a dedicated facility.
    The U.S. Government passed a law in 1977 called the Farm 
Bill, Public Law 95-113, which granted the USDA the 
responsibility for dietary advice as opposed to what was at 
that time called DHEW, now called DHHS. Many viewed this as a 
conflict of interest since the USDA is also dedicated to 
increasing food consumption, while it is clear that the over-
consumption of some foods may be contributing to the health 
problems of obesity.
    Many scientists in the community, including those who work 
in the health nutrition information service, such as Dr. Marian 
Nestle, have recently raised the issue of whether we ought to 
revisit and remodel the USDA pyramid which developed in 1992. 
This pyramid you see before you shows how Americans are eating. 
They are eating refined carbohydrates off the bottom of the 
pyramid and they are eating sweets, fats and oils at the top of 
the pyramid which appears to be almost toppling off.
    The issue here with pyramids is that we recommended in 1997 
that fruits and vegetables be placed at the bottom of the 
pyramid with whole grains above that. Dr. Alice Lichenstein at 
Tufts University and others, Dr. Walter Willet and others have 
asked that we revisit the pyramid. The USDA has held to the 
view we should have dietary guidelines. The difference between 
a dietary guideline and a pyramid is a pyramid creates a 
hierarchy of foods according to their health value whereas a 
dietary guideline allows you to talk in the abstract about fat, 
carbohydrate or protein. We know when we had fat free foods in 
the 1980's, there was a 30 percent increase in obesity as 
sugars were put into foods.
    We are having a lot of argument now which Dr. Kushi 
indicated and I think the answer is to go to a plant based 
diet. Man evolved on a plant based diet. If we look at this 
apple that has a red skin, there are 25,000 phytochemicals in 
that skin. If I take the Vitamin C from this apple and put it 
in with colon cancer cells, it will not inhibit their growth as 
well as if I take an extract of this whole apple. We have taken 
extracts of whole fruits and vegetables in our research and 
shown significant effects on cancer inhibition.
    This is a simple picture of visualizing your plate. I think 
we can get advice to the American people through pyramids and 
also through looking at your dinner plate and making it 
colorful, two-thirds full of fruits and vegetables, berries for 
dessert and a nice dark green salad which is full of folic acid 
as mentioned in the last talk, and Dr. Kushi also mentioned. 
These are not impossible changes. I wanted to get that across 
to the committee, very simple things we can educate the public 
to do.
    I wanted to indicate the botanical dietary supplements did 
not come from another planet. They are actually from our fruit 
and vegetable and traditional food sources. Chinese red yeast 
rice was classified by the USDA in 1920 as a food product. It 
was declassified as a dietary supplement in 2001 following the 
FDA's pursuit of a Federal Appeals Court decision in April 2001 
declaring it an unapproved drug. The reason for this was that 
there is a part of the DSHEA legislation which says if a 
botanical dietary supplement contains something previously 
approved as a drug, it may not be classified as a dietary 
supplement.
    This shows you nine chemicals and they look like little 
chicken wires up there. One of them is classified as a drug but 
the other eight all have activities in lowering cholesterol. 
This is one of the nine called monocolin K, made by the red 
yeast when it sits on top of the rice and the rice stimulates 
the yeast to make this family of nine compounds. One of these 
was selected and classified as a drug because it was purified 
and crystallized. The key difference between a dietary 
supplement and a drug is dietary supplements are combinations 
of multiple compounds whereas a drug is a single purified and 
crystallized compound.
    We did the first trial of Chinese red yeast rice and 
published it in February 1999. In that trial, we showed that 
approximately 6 mg of monacolin K or lovastatin, the drug, when 
included in a matrix of an herb would actually lower 
cholesterol as effectively as 20 mg of mevacor. The yeast 
material cost $10 to $20 per month in your local drug store. 
This represents a potential significant cost savings, not just 
to the American public, but to the Federal Government through 
the Medicare and Medicaid programs who have to pay for 
expensive prescription drugs when these types of herbal 
products would do a similar job.
    Over 57 million Americans today have high cholesterol. Only 
13 million take expensive prescription lowering drugs. The 
affordability of botanical supplements could help save money as 
well as improve the public health. Both drugs and botanical 
supplements have a role to play in promoting health. It is not 
one versus the other but the DSHEA law should be fully 
implemented and not selectively implemented. As I will point 
out in the next example, while FDA selectively implemented this 
provision I spoke about, they have not implemented the one you 
pointed out this morning, the issuance of good manufacturing 
practices which is almost 10 years overdue.
    PC-SPES is a mixture of eight Chinese herbs, has a 50 
percent response rate in advanced prostate cancer. We have 
recently done research to show this has a response in colon 
cancer and leukemias and lymphomas as well. Some of that work 
is going to be very shortly published. I have with me the July 
15 issue of Cancer Research, one of our most prestigious 
journals in the United States in cancer research. There is an 
article in there by Dr. Peter Nelson at the University of 
Washington funded through CAP Cure, the Association for the 
Cure of Prostate Cancer where Mr. Michael Milken has raised 
almost $200 million for prostate cancer research.
    This slide is fairly scientific but if you look at the line 
of identity in the upper two lines, that is comparing PC-SPES 
to itself and you get a 45 degree angle. If you look at it for 
a comparison for diethylstilbesterol which was said to be 
contaminated, you see there is no specific response comparing 
it. So it is totally different than diethylstilbestrol.
    This slide shows a gene profile. The genes in red are the 
ones that are up regulated and that is taken from this article. 
The green genes are the ones that are down regulated. The PC-
SPES is a mixture of eight well known Chinese herbs and 
specifically down regulates the androgen receptors, 
specifically down regulates tubulin genes and other genes 
involved in the carcinogenesis process.
    Today using 21st century science, gene chips where we can 
monitor 80,000 genes from the prostate cancer cell, we see that 
the actions of PC-SPES which is prostate cancer has actions far 
beyond what can be explained by any of the putative 
contaminants which caused it to be removed from the market.
    The California version of the FDA found warfarin 
contamination in PC-SPES and it was voluntarily withdrawn from 
the market so thousands of patients were deprived of this 
treatment. This is something that could have been avoided with 
good manufacturing practices. We are currently mobilizing 
research at UCLA to reactivate the science foundation for PC-
SPES after it is appropriately manufactured with good 
manufacturing practices.
    One of the problems here is that the FDA has not issued 
good manufacturing practices. The burden has been left to the 
industry in hard fiscal times to have to pay for these quality 
controls on their own rather than have this done as a 
government function which is how it should be done.
    I would urge you to have full implementation of the DSHEA 
legislation by asking FDA not only to fully implement the good 
manufacturing practices to help us with that aspect but I would 
also ask you to increase support efforts to increase fruit and 
vegetable intake in the American diet because 93 percent of 
Americans say they want to change their diet, 78 percent want 
to increase fruit and vegetable intake, only 4.5 percent of the 
USDA budget is currently being spent on fruit and vegetable 
intake promotion. Secretary Veneman is supportive of this, so 
we have the public and USDA both supportive. I think you could 
provide a very good catalytic action in moving this ahead.
    We do have an IND pending before FDA to research the basic 
metabolism of Chinese red yeast rice. I would say to bring this 
public health benefit to the public, we do need to continue to 
have pressure for full implementation of DSHEA so that when we 
get nutrition breakthroughs as we have in the last 20 years, 
they are fully benefiting the American public by coordinating 
the activities of USDA, NIH, CDC, FDA and the Federal Trade 
Commission which has a role in clearing up the labeling 
problems that Professor Bray has noted.
    Thank you for your time and your dedication. I look forward 
to working with you in the future.
    [The prepared statement of Dr. Heber follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.071
    
    [GRAPHIC] [TIFF OMITTED] 81866.072
    
    [GRAPHIC] [TIFF OMITTED] 81866.073
    
    [GRAPHIC] [TIFF OMITTED] 81866.074
    
    [GRAPHIC] [TIFF OMITTED] 81866.075
    
    [GRAPHIC] [TIFF OMITTED] 81866.076
    
    [GRAPHIC] [TIFF OMITTED] 81866.077
    
    [GRAPHIC] [TIFF OMITTED] 81866.078
    
    [GRAPHIC] [TIFF OMITTED] 81866.079
    
    [GRAPHIC] [TIFF OMITTED] 81866.080
    
    Mr. Schrock. Thank you very much.
    Your testimony has been fascinating and I appreciate 
everything you have said.
    Mr. Seckman, you are right, our President is kind of taking 
a lead in this. His workout routine every morning is an 
inspiration to a lot of people and hopefully will get people on 
board. We do need to speak out up here and make sure that we 
are taking a lead in that. Some of us will certainly do that.
    You talk about obese kids who eat chips and cokes all day 
long. It is no wonder we have that problem.
    As a consumer decides what dietary supplements to use, not 
just the brand but specific substances like Vitamin C, ginseng, 
Vitamin E and others because you walk into these health food 
stores and there is this sea of things there and you think, 
what do I need and it is very, very difficult. The people 
behind the counter certainly don't know how to respond to you.
    Mr. Seckman. That is an excellent question.
    The local retailer is probably one of the best experts to 
direct you to certain areas. The NNFA has produced over the 
years and puts on our Web sites information for consumers 
written in language that consumers can understand about certain 
types of ingredients and products. We encourage them to go 
there. It is very difficult to go out to the mass market and 
have discussions with people in such and such a store but go to 
the local health food store where these people spend a vast 
majority of their lives, this is what they believe in, what 
they do. Talk to the retailers of those facilities about the 
different products and they can help guide you. Also look on 
the Internet at our Web site, www.nfa.org and get other 
information that is directed to consumers.
    Mr. Schrock. Dr. Bray, you were talking about some of the 
health foods. In this magazine I held up earlier, there is one 
product that I have thought about using. It is called 
hydroxycut. I don't even know if you are familiar with that.
    Dr. Bray. I am.
    Mr. Schrock. I have been advised by some not to use it 
because they say it makes you depressed and has other sorts of 
side effects. How does one know because on many of these 
bottles, you don't see that stuff and how much weight can one 
expect to lose from using some of these products?
    Dr. Bray. Let me take the second question first. Almost all 
of the data we have people will lose no matter what they do, 
sort of surgical approaches, less than 10 percent of where they 
started. The message I also delivered was that 3 to 7 percent 
is associated with reductions in risks for diabetes for people 
at high risk. So even small weight losses of 5 percent or less 
can be beneficial to people who are at risk for problems.
    The issue of how you make selections is a very difficult 
one. It is where the educational forces from consumers unions, 
from Prevention Magazine, from the television, newspaper and 
magazine issues really come into play. I think we have to do 
the best we can to make sure the science writers are as well 
educated as possible in the broad issues and that they write it 
in a way in which it is informative.
    The article that Dr. Kushi referred to a few moments ago in 
the New York Times has probably generated more letters and e-
mails to them than any other thing they have had in a great 
while suggesting people read it, but there is controversy in 
this issue. This is a place where the press is particularly 
important where groups like yours are important but where it is 
difficult. Going in as I did on Saturday with my professional 
background but with nothing more than that, I found it a real 
challenge.
    I think one area where improvement could be made would be 
in the labeling strategy that we use. Putting large numbers of 
things on a package can be more confusing than helpful. I think 
that our regulatory agencies could work to improve the labeling 
information that consumers have so that when they go in after 
reading the New York Times or Prevention Magazine, they can 
identify what they want in an easily readable and intelligent 
fashion.
    Mr. Schrock. It seems every publication you read that each 
one tells you something different and that adds to the 
confusion when you try to decide what to take.
    Dr. Bray. The problem is some of the scientific articles 
shift back and forth. Sometimes fiber is good, sometimes it is 
not so good. That confuses even those of us who work in the 
field.
    Mr. Schrock. If you will excuse me, we do have a vote. I 
assure you I will run over there, and run back here. We should 
be back in just a few minutes.
    [Recess.]
    Mr. Schrock. Thank you for waiting.
    Dr. Kushi, thank you and your parents for what you do. You 
provide wonderful things for society and I really appreciate 
that a lot.
    Fat in the diet, boy is that a big issue. The males had a 
screening in the Capitol not long ago and my communications 
director had his done and I had mine done. He had 11 percent 
body fat and mine was 15 and I was furious because he is 
younger than I am but I just don't understand. My doctor says 
for you, that is perfect, so I am trying to figure out what is 
the right amount of fat, what is not and is it OK for the 
average American to include plant products that contain fat 
such as avocadoes, nuts and olives because sometimes you hear 
there is too much in the nuts. From a personal standpoint, I 
would like to get your spin on that.
    Dr. Kushi. As far as fat in the diet, generally, one of the 
points I tried to make is that it is really the type of fat not 
the amount that is probably more important, although certainly 
the amount also plays some role. Plant-based products that have 
fat intake, for example, nuts, can be part of a healthful diet 
and probably should be.
    We actually published a study that demonstrated that people 
who eat nuts on a regular basis have approximately 30 to 40 
percent decreased risk of developing heart disease. So it is 
consumption of that type of plant-based quality, relatively 
high oleic acid, linoleic acid type fat.
    Mr. Schrock. That is good because I thought if I liked it, 
it was not good for me.
    Dr. Kushi. I think the recommendations from the Heart 
Association will be changing partly as a result of these types 
of observations.
    Mr. Schrock. Dr. Peeke, you made a lot of comments I want 
to comment on. You said nobody is teaching health anymore. When 
I was a kid, as I recall, we had a health class. It was Mr. 
Ridenhauer who was my health teacher. I don't think they have 
that sort of thing anymore but I remember it and I remember 
some of the things he taught me. I think that has carried me 
through to where I am right now. It seems like with budget 
cutbacks in school and such, they have gotten rid of that and I 
think that is a bad thing. I guess it is incumbent on us to try 
to do something about that. I certainly agree that is a 
problem.
    You are the recognized expert in understanding the 
relationship between stress and weight gain and those of us who 
work here in Washington can certainly relate to that. How do 
you explain that, stress and the weight gain? In my case, when 
I am stressed, I don't eat but most people do and I wonder in 
the environment we have here how that impacts us?
    Dr. Peeke. We go back to the issue of men and women again. 
As it turns out, a number of studies have now been done over 
the last 2 years that have shown that it is women who are the 
primary stress overeaters, that it is men who tend to lean to 
alcohol in response to stress.
    Your proclivity to undereating or overeating really depends 
on one, your genetic base upon which you usually deal with 
stress which is about 30 percent and also it depends on the 
level of stress. If you have a true tragedy, if you have 
something that is of monumental portions, it doesn't matter 
what the event was in your mind, by definition stress 
undereating tends to take place.
    When we look at what happened with September 11th in town, 
as a Washingtonian, we studied this rather closely and what we 
found in both New York and Washington almost uniformly across 
the board, people were stress undereating for that first week, 
they were not stress overeating because of the incredible 
tragedy and the level of pain that was ensuing.
    What was fascinating was there a rebound eating phenomenon 
that took place within the month. Once again, it was women who 
were the stress overeaters primarily and the men who 
interestingly coped with the stress much better. They tend to 
compartmentalize as I mentioned before, stay focused and just 
realize things would go on.
    Women are womenators, women are ponderers and we have new 
research that has just been published by the proceedings of the 
National Academy of Sciences and others over the last 2 weeks 
that has shown there are real changes in the brain that you can 
actually follow using something called a MRI, a scan of your 
head which has been noted in at least two different university 
studies in the last month. Again, you see that gender 
difference.
    The stress issue, very straightforward. We all have stress 
hormone and when stress hormone is utilized appropriately for 
your typical fight and flight, if I was running up those stairs 
and trying to not be late for the next meeting, that is normal. 
I am going to have a bit more functional elevation of that 
stress hormone, cortisol.
    The problem ensues--something studied by my mentor, Dr. 
George Krusos at the National Institutes of Health in our lab--
it was found when you have chronic levels of stress, and you 
have chronic elevations of stress hormone for long periods of 
time, this is abnormal and unhealthy and it leads to a number 
of different ramifications, everything from depressed immune 
function, retarded growth, dysfunctional reproduction, and 
through the use of new technology in molecular biology and work 
of others, we have found that you can actually stimulate 
increased amounts of fat deposition in the worst place in the 
human body which is deep under your abdominal muscle wall. So 
if you get too much of that, that lovely little apple look or 
in a guy it is that big waist look, that fat is basically toxic 
to the human body. It is highly associated with what we now 
call the metabolic syndrome associated with an increased risk 
in incidence of heart disease, high blood pressure, blood 
clotting problems, diabetes and cancer.
    If you look specifically at waist to hip ratios, rather 
than body mass index in women, the Iowa Women's Study, that is 
a greater predictor for morbidity, mortality than just scale 
weight alone. So you see we have come quite far.
    Mr. Schrock. Obviously this guy has no stress is that what 
you are saying?
    Dr. Peeke. No, he has other things going on.
    Mr. Schrock. Dr. Church, in some of the examples you gave, 
you had the two test groups and you said there was no change in 
the plasma glucose. My guess is that is what you were looking 
for and you didn't find it in those two groups. Why would that 
be because obviously one was better than the other?
    Dr. Church. It wasn't something I was looking for, it was 
something somebody told me to look for. I didn't believe the 
pilot data to start with. I thought it was just a sample size 
issue. Once again, that is why it is so important to always 
have placebo control, appropriately powered, double blinded 
studies to see if there really is an effect or not.
    I think that glucose phenomenon we saw is an interesting 
issue because that is often what you see in those magazines you 
are holding. They will look at 10, 15 or 20 people and use a 
study that is a horrible study design and meant to show the 
results they are looking for. It is not a properly run study. 
If we were not who we are and don't do things the way we do, we 
could have made the claim that our research shows our vitamin 
lowers glucose but in fact now that we have done the 
appropriate research, it doesn't.
    Mr. Schrock. We talk about obesity in kids and my wife 
teaches kindergarten and you cannot believe how many are so 
badly out of shape, you would think they were 30 year olds. How 
do we turn that around? PE programs? They try to teach some of 
that and feed the kids correctly in school but you have to be 
able to turn that around or these kids are going to be health 
nightmares all their lives.
    Dr. Church. I think PE is a great place to start. Look at 
Louisiana, a State that has gotten rid of PE and when I lived 
there, they were starting to get rid of recess. The studies 
show that kids who are not active in school will not be active 
when they go home. PE and laws that mandate PE is a great place 
to start.
    Mr. Schrock. I agree.
    Dr. Heber, your book is great. I am going to read this, 
``What color is your diet?'' Explain why that is important.
    Dr. Heber. Humans and a few primates are the only ones who 
have red-green color discrimination. Dogs, cats and other 
animals are red-green color blind. It is believed we evolved 
that to be able to select our food supply. These colors are not 
random. They represent specific families of chemicals that have 
been implicated in disease prevention.
    The red group would be tomato juice, tomatoes, tomato 
sauce, tomato soup and pink watermelon and pink grapefruit all 
have lycopene. The green-yellow group would be spinach, kale 
and avocado which have lutein in them. We were the ones at UCLA 
that showed that avocado is the richest source of lutein among 
fruits. These are concentrated in the back of the retina where 
they help prevent age related macular degeneration, the primary 
preventable cause of blindness in people over 65.
    The orange group is alpha and betacarotene, it is a cancer 
preventive and also contributes to night vision. Around the 
world most people get their Vitamin A from plant products. Here 
in the United States, we get it from Vitamin A and D fortified 
milk and from meat products. There may be biological 
differences of getting it in that way versus getting it from 
the fruits and vegetables.
    Garlic, onion and chives have Allyl sulfides in them which 
were used as antibiotics before World War II and these also 
inhibit cancer growth.
    The red-purple group are raspberries, blueberries and 
strawberries. If you feed blueberries to mice as they age, they 
don't go through a maze as quickly but if you put blueberries 
in their feed and change it from that brown, beige color to a 
purple color, they do better in performance tests.
    There is the green group which is broccoli, brussels 
sprouts, bok choy and cabbage that has isothiocanates which 
goes to your liver and stimulates enzymes to help you fight off 
pesticides and carcinogens in the environment.
    The yellow-orange group is citrus, pineapple, banana. 
Citrus fruits have preventive substances on their surface. If 
you squeeze an orange peel, a little bit of fluid comes out 
that has liminoids in it and these have also been shown to be 
cancer preventive. The oranges and lemons develop this to fight 
off fungi that would land on their surface and by an accident 
of nature, these substances are cancer preventive in humans.
    These and many other compounds are being studied by the 
National Cancer Institute for Cancer Prevention and seven 
servings a day of these different colors not only give you the 
diversity but there is 475 calories there, a lot of fiber and 
it is easier to diet when you fill up. Barbara Rolls wrote a 
book on that called ``Volumetrics.''
    Nutrition authorities disagree a lot but we all agree that 
more fruits and vegetables are healthy. That is my push with 
this book. We are going to meet with grocers to see if we can 
get increased emphasis on produce sales throughout the country. 
The National Cancer Institute has an Office of Five a Day for 
Better Health that we initiated in California that is working 
on this in partnership with us.
    Mr. Schrock. All of what you said is in here?
    Dr. Heber. Absolutely.
    Mr. Schrock. I had a boss a few years ago who used to eat 
garlic all the time. He looked great, smelled like the dickens 
but he said it was a very healthy thing for him. I understand 
that now.
    Dr. Heber. There is a lot of science on that and on green 
tea and other things.
    Mr. Schrock. I thank you all. You have been wonderful. We 
have learned a lot and I hope we can continue this discussion. 
This Member wants to get involved in this subject and if there 
is anything I can do to help you on Capital Hill, I want to be 
the person to do that. I probably have a better feel for good 
health than most Members. I want to be a part of that to make 
sure nobody else has to go through what I went through. If 
there is anything I can do to help you all, that is what I am 
here for.
    Again, thank you for being here.
    We have Dr. Coates and Dr. Dietz next. We have to do the 
obligatory swearing.
    [Witnesses sworn.]
    Mr. Schrock. Let the record reflect the witnesses responded 
in the affirmative. Thank you for being here.
    Our first speaker is Dr. Paul Coates, Director, Office of 
Dietary Supplements, National Institutes of Health. We are 
delighted to have you here. Our second speaker is Dr. William 
Dietz, Director, Division of Nutrition and Physical Activity, 
Centers for Disease Control and Prevention.

   STATEMENTS OF PAUL M. COATES, Ph.D., DIRECTOR, OFFICE OF 
DIETARY SUPPLEMENTS, NATIONAL INSTITUTES OF HEALTH; AND WILLIAM 
   DIETZ, M.D., DIRECTOR, DIVISION OF NUTRITION AND PHYSICAL 
      ACTIVITY, CENTERS FOR DISEASE CONTROL AND PREVENTION

    Dr. Coates. I appreciate the opportunity to discuss with 
you the activities of the Office of Dietary Supplements and to 
highlight the directions we have taken in developing good 
science in the field of dietary supplements.
    At the end of my testimony, I will also provide some 
comments about issues related to diet and chronic diseases as 
requested by the committee.
    Dietary supplements are widely used by American consumers 
often in combination with other lifestyle measures such as diet 
and physical activity for their potential benefits in health 
promotion and disease prevention. This potential has been 
realized when some supplement ingredients have been put to a 
true scientific test. I have provided examples of these in my 
written testimony. I will give one example here, folic acid in 
the prevention of neural tube defects.
    The positive effects of other ingredients, while promising 
and subjected to early scientific testing, have yet to be fully 
proven. Some of these are under active investigation in studies 
funded by the National Institutes of Health such as a study of 
Gingko biloba to prevent decline in cognitive function in older 
individuals.
    I want to remind folks that the Office of Dietary 
Supplements was authorized by DSHEA in 1994 and its mission is 
to identify and foster research on the health benefits and the 
risks of supplements based on the merit of the underlying 
scientific evidence.
    To meet this goal, ODS uses a number of mechanisms. A major 
one is that we fund a network of multidisciplinary botanical 
research centers around the country. These centers at the 
University of Illinois, Chicago; UCLA; University of Arizona; 
and Purdue University are jointly funded with the National 
Center for Complementary and Alternative Medicine or NCCAM with 
additional support coming from other components of the NIH.
    The National Institute of Environmental Health Sciences 
supports the activities of a related center at the University 
of Missouri. I am pleased to announce that as of yesterday, we 
added a new center at Iowa State University funded in 
collaboration with the NIEHS.
    Examples of other ongoing activities of the ODS are 
research training and career development, an important 
component in establishing new careers in the area of dietary 
supplement research. We also cofund grants and conferences with 
other NIH institutes and among our educational activities, we 
create fact sheets for consumers.
    The budget for ODS has grown substantially from 
approximately $3.5 million in 1999 to $17 million this year. 
This has permitted us to expand our research agenda into new 
and important areas including evidence-based reviews of dietary 
supplement efficacy and safety, development of improved tools 
to evaluate dietary supplement use in the population, a 
research agenda focused on ephedra and analytical science tools 
relevant to botanical ingredients.
    We have worked with partners in both the public and the 
private sectors to meet these goals. In my view, these 
collaborations within and outside the NIH demonstrate the 
strength of forging partnerships and in my opinion have been 
crucial to the advancement of science in this area of dietary 
supplements.
    You asked me to comment on our efforts related to ephedra. 
ODS and NCCAM recently funded an evidence report on the 
efficacy and safety of ephedra containing dietary supplements 
for weight loss and athletic performance. Our specific goal in 
sponsoring this report was to help us with the appropriate next 
research steps on this topic, a mandate called for in recent 
congressional report language supporting the ODS budget.
    This evidence report, still in draft form and under review 
by content experts, was developed by the RAND Southern 
California Evidence Based Practice Center, one of a network of 
such centers supported by the Agency for Health Care Research 
and Quality, a sister agency in HHS.
    This report systematically and objective assesses and 
analyzes the world's literature relevant to this topic, both 
published and unpublished. The final version of this report is 
expected to be released later this year but in the meantime, 
ODS has already begun to develop research initiatives for 
ephedra including the development and validation of analytical 
methods and standard reference materials and the evaluation of 
potential ephedra toxicity using animal models.
    In the last part of my testimony, I wanted to comment 
briefly on some issues related to the role of dietary and 
lifestyle interventions that may be involved in the prevention 
of or contribution to chronic disease. While this is somewhat 
outside the purview of the Office of Dietary Supplements, here 
are some comments I was able to gather from my colleagues at 
the National Institutes of Health. More details are given in my 
written testimony.
    The Dietary Guidelines for Americans, issued by the 
Departments of Agriculture and Health and Human Services in 
2000, recommend a diet low in saturated fat and cholesterol and 
moderate in total fat as part of an overall healthy eating 
pattern. This healthy eating pattern needs to consist of a 
variety of foods including grains, fruits and vegetables. The 
Guidelines also point to the critical importance of maintaining 
a healthy weight and a physically active lifestyle.
    Balancing dietary intake with energy expenditure is 
crucial, given concerns about the rising epidemic of obesity 
and the increase in sedentary lifestyles in the United States. 
A large body of evidence, alluded to more than once in previous 
testimony, indicates that avoiding overweight, obesity, and 
adult weight gain is linked with reduced risk of several 
cancers as well as heart disease, hypertension, and Type II 
diabetes.
    Finally, I wanted to comment that the Departments of Health 
and Human Services and Agriculture have contracted with the 
Institute of Medicine to prepare a report on dietary reference 
intakes of macronutrients, specifically carbohydrates, 
proteins, and fats. This report, due to be released within the 
next several weeks, is expected to contain recommendations 
regarding adequate levels of intake, levels that may exert 
positive health benefits, as well as levels that may be 
associated with adverse health outcomes.
    I thank you again for inviting me and I would be happy to 
answer questions.
    [The prepared statement of Dr. Coates follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.081
    
    [GRAPHIC] [TIFF OMITTED] 81866.082
    
    [GRAPHIC] [TIFF OMITTED] 81866.083
    
    [GRAPHIC] [TIFF OMITTED] 81866.084
    
    [GRAPHIC] [TIFF OMITTED] 81866.085
    
    [GRAPHIC] [TIFF OMITTED] 81866.086
    
    [GRAPHIC] [TIFF OMITTED] 81866.087
    
    [GRAPHIC] [TIFF OMITTED] 81866.088
    
    [GRAPHIC] [TIFF OMITTED] 81866.089
    
    Mr. Schrock. Last but certainly not least is Dr. William 
Dietz, the Director, Division of Nutrition and Physical 
Activity, Centers for Disease Control and Prevention. We are 
delighted to have you here and would love to hear your 
testimony as well.
    Dr. Dietz. It is a pleasure to be here and I am grateful 
for the opportunity to address the risks of obesity and the 
scientific basis for diet and physical activity.
    You are already very familiar with the topic which I was 
invited to address, the burden and the costs of this disease. 
With your permission, I would like to abbreviate my comments 
and focus on a few points which I think deserve greater 
emphasis.
    You mentioned already the prevalence of obesity has 
increased substantially but the increases have been even 
greater in children and adolescents than they have been in 
adults. Between 1980 and 1994, the prevalence of obesity in 
children doubled and in adolescents it tripled. Over that same 
time period it only increased by about 50 percent in adults.
    Second, you mentioned the burden of disease attributable to 
obesity. I think diabetes which has been mentioned is a very 
pertinent example. This used to be a disease which was limited 
to adults and now we are seeing it in children and adolescents 
for the first time and in some communities, Type II diabetes 
accounts for almost half of all new cases of diabetes. This is 
in effect a new disease and there has been a recent report 
which suggests the morbidity associated with Type II diabetes 
in adolescents is worse than we previously have seen and is 
associated with early death, early blindness, early kidney 
failure.
    The other point I think is worth emphasizing is the 
contribution of childhood onset obesity which you have been 
very concerned about and I think appropriately so. We know from 
some data we published that over 60 percent of overweight 5 to 
10 year olds already have one additional complication of 
obesity like elevated blood pressure, elevated lipid levels or 
elevated insulin levels and 25 percent of those 5 to 10 year 
old children have two or more. This is a disaster waiting to 
happen.
    We published data last month showing that hospitalization 
rates for obesity and its associated diagnoses in children 
tripled over a 20 year period. The costs from obesity in 
childhood also tripled.
    To me the gravest concern is that although childhood onset 
obesity only contributes about 25 percent of adult obesity, 
children who are overweight in early childhood tend to be the 
heaviest of adults. The mean BMI for a child who is overweight 
before 8 years of age is over 40 which means that as an adult 
they are 100 pounds or more overweight and therefore, more 
susceptible to the complications of adult disease.
    You are very familiar with the deaths and disabilities 
attributable to this, so I won't emphasize that except to say 
that State Medicaid costs already account for 20 percent of the 
average State's budget and the epidemic of obesity and its 
associated illnesses are going to drive those costs further. So 
in an era of shrinking State budgets and increased Medicaid 
costs, we are going to be confronting a very serious financial 
crisis.
    Paul mentioned the collaboration of NIH with other groups 
and we have been pleased to assist the Office of Dietary 
Supplements with a survey of non-prescription weight loss 
products by adults in five States. According to our data, 7 
percent of adults reported they used an over the counter weight 
loss product in the past 2 years and 2 percent reported the use 
of phenylproponolimine and 1 percent the use of an ephedra 
product. I think this reflects the high level of concern on the 
part of the population about the need for effective weight 
control strategies and emphasizes the need to provide the 
public with very effective and safe weight loss strategies.
    However, the rapidity with which obesity has increased can 
only be explained by substantial changes in the environment 
that have served to modify calorie intake and energy 
expenditure. Effective control of this epidemic will require 
more information about the opportunities and barriers to 
physical activity and good nutrition and most importantly, the 
development of effective interventions.
    The size of the population that we are attempting to reach, 
25 percent of the adult population, 15 percent of the pediatric 
population, indicate that we can't rely on individual behavior 
changes alone, that those must be augmented with broader, 
coordinated policy and environmental changes across multiple 
sectors that affect large numbers of people.
    We have made efforts to develop effective prevention and 
treatment strategies through our State obesity programs, the 
State coordinated school health programs, the youth media 
campaign, partnerships with other organizations and applied 
research agenda to develop and refine new approaches.
    We believe there are four strategies which can be 
implemented today to address the epidemic of obesity and its 
associated chronic diseases. These include physical activity, 
which includes physical education programs in schools, 
increased fruit and vegetable intake, control of TV time 
watched by children and breast feeding for all infants. There 
is recent data which suggests that breast fed infants have a 
lower risk of the subsequent development of obesity.
    In summary, as you pointed out, obesity in the United 
States is epidemic. The diseases caused by obesity are already 
increasing and are already contributing to increased health 
care costs. Our programs have begun to address the problem of 
obesity but are small and just beginning. Nonetheless, 
comprehensive nutrition and physical activity programs to 
prevent and treat obesity appear the most logical course for us 
to address this widespread problem.
    Thank you very much for the opportunity to talk with you 
about it.
    [The prepared statement of Dr. Dietz follows:]
    [GRAPHIC] [TIFF OMITTED] 81866.090
    
    [GRAPHIC] [TIFF OMITTED] 81866.091
    
    [GRAPHIC] [TIFF OMITTED] 81866.092
    
    [GRAPHIC] [TIFF OMITTED] 81866.093
    
    [GRAPHIC] [TIFF OMITTED] 81866.094
    
    [GRAPHIC] [TIFF OMITTED] 81866.095
    
    [GRAPHIC] [TIFF OMITTED] 81866.096
    
    [GRAPHIC] [TIFF OMITTED] 81866.097
    
    Mr. Schrock. Thank you very much. Fascinating.
    Dr. Coates, first of all, thank you for what you do at NIH. 
I think this Federal Government is finally realizing we need to 
do more there and I know the budget increased last year. We 
need to continue doing that because what you do there has such 
an impact on every other segment of society that we need to 
continue funding that.
    I am not going to ask you for name brands but everybody is 
on a weight loss program. What is the best kind of weight loss 
program? My wife, who is gorgeous anyhow, is now 32 pounds 
lighter because she has lost 32 pounds on her way to 35 on 
Weight Watchers. It really does the trick but is that a 
permanent solution or what? How do people get it off and keep 
it off?
    Dr. Coates. I can make a couple of brief comments and 
perhaps Dr. Dietz would be able to expand on it.
    Thank you for your comments about the NIH. I wish I could 
take credit for the broad swath of advances made there but I am 
very pleased to be a part of an organization that has this kind 
of reputation. It is a very exciting place to work, I assure 
you.
    In terms of weight loss programs, I think it was alluded to 
a little earlier that a great many weight loss programs can 
work in the early phases. The trick is to be able to sustain 
the weight management and if necessary the continued weight 
loss, whether it is possible to continue to take off weight.
    There are a lot of programs out there. There are some that 
have been well designed, well tested. Sometimes you cannot 
distinguish between the ones that have been well designed and 
tested from the ones that might not have.
    I think it is fair to say that consumers are in a position 
where they have to make choices among a great many things. It 
is not always easy to do that.
    Do you have any further wisdom on that?
    Dr. Dietz. I completely agree there are a lot of approaches 
to taking off weight but the key is sustaining those losses. 
There is an interesting weight loss registry that exists in 
Pittsburgh, a national registry, that consists of people who 
have lost 60 pounds and kept it off for a year.
    There are four strategies that appear to be successful in 
maintaining weight loss. The first is eating breakfast; the 
second is monitoring weight at least on a weekly basis; third 
is a reduced fat diet; and fourth is physical activity, about a 
hour of moderate physical activity daily. Those strategies 
appear to be uniform across the people who have lost 
substantial amounts of weight and sustained it.
    Mr. Schrock. I am not so sure my wife would be happy about 
me talking about that but those are the four things she has 
done and it really does work.
    Dr. Coates, as I get closer to being a senior citizen, it 
is said that they often absorb less nutrition from their food 
and you kind of wonder why it wouldn't be important for seniors 
to do more supplemental food type things. Every time I am in 
one of those food supplement stores, I am the oldest guy there. 
They are usually young ladies trying to keep thin and guys who 
want to bulk up, and the young but not senior citizens. 
Wouldn't that be a good thing for them?
    Dr. Coates. I agree with you on that. Indeed, one of the 
items I referred in my written testimony was that 
supplementation with Vitamin B12 is an effective strategy, 
particularly among the elderly because of the decreased ability 
to absorb B12 from food. I think we are really just beginning 
to understand some of those issues. B12 is a signal example.
    Our colleagues in the National Institute on Aging and we 
are sponsoring a conference on this issue about dietary 
supplement use in the elderly to be held at the NIH early next 
year. In part, this was driven by the good sense at the NIH 
that this was an area that needed developing, but you probably 
also remember that Senator Breaux from Louisiana held a hearing 
last year I believe on September 10 on the issue of dietary 
supplement use in the elderly. So there is clearly a lot of 
concern and enthusiasm at the same time for the potential for 
dietary supplement use in the elderly. We just don't understand 
enough of the need there.
    Mr. Schrock. Isn't a lot of it genetics? My dad will be 89 
in a couple of weeks and honestly I go out to California and I 
come back exhausted just trying to keep up with him and others 
half his age look like they are twice his age.
    Dr. Coates. You can argue if it were that genetic that you 
would be the same but I think there are differences among 
people. There is an unknown proportion of this sort of thing 
that is under genetic control and it is probably true for all 
of these issues. Maybe there are some common themes that run 
through them. I don't actually know that is true but we would 
be always looking for those interactions between genes and the 
environment, where in this case the environment would be 
nutrition or dietary supplements.
    Mr. Schrock. Dr. Dietz, you made a comment that was 
interesting. All of a sudden we are really concerned about the 
increase in childhood diabetes. Why? When I was a kid, I don't 
remember it at all. Now, it is a big deal. We have friends who 
have kids that have it. I never heard about that when I was 
growing up.
    Dr. Dietz. It is driven by obesity, 80 to 90 percent of the 
Type II diabetes in children and adolescents is attributable 
directly to obesity. There is a strong family history in those 
kids that it is the obesity which brings it on.
    Mr. Schrock. I never would have thought that.
    What role is the CDC playing in the President's new 
initiative on physical fitness? Are you integrally involved?
    Dr. Dietz. Yes, we very much are. We helped write the 
document that came out and in my division there is a Physical 
Activity and Health Branch which in the last administration 
helped put together the President's report on physical fitness 
or I think it was entitled, ``Physical Activity in Youth.''
    We are part of the co-lead with the President's Council on 
Physical Fitness and Sports for drafting the Healthy People 
2010 Guidelines and are actively pursuing revisions in the 
recommendations around physical activity. For example, our 
questions and surveillance only ask about leisuretime physical 
activity and neglecting the potential for physical activity at 
work. So we are involved both in terms of assessing the 
problem, developing recommendations and implementing those both 
within communities and within States.
    Mr. Schrock. It is not a bad thing to see the President in 
a workout environment, working with weights and things. I think 
that sends a strong message.
    Dr. Dietz. Yes. He is a wonderful model. In some respects 
though I think what the President is doing may have exactly the 
opposite effect because I think a lot of people see the 
President running and doing 7 minute miles which is 
extraordinary and just dismiss it, they say I can't do that. 
The message we try to send is you don't have to be a marathoner 
to have an improvement in your health as a result of physical 
fitness.
    Mr. Schrock. That is right. Schools, can they have an 
impact on this and how?
    Dr. Dietz. Absolutely. We recently published a chapter for 
a document known as the Guide to Community Preventive Services 
which is an evidence based document much the same type of 
analysis that physicians rely on when they prescribe a specific 
drug for a specific problem. One of the recommendations in that 
chapter was the importance of physical education as a 
documented way to increase physical activity in children and 
adolescents.
    In an era when parents are increasingly concerned about 
safety and neighborhoods are increasingly less safe for 
children and adolescents, schools represent one of the last 
safe places for children to be physically active, not only 
within school but one of the programs we are working on which 
is turning out to be quite popular in communities is the Kids 
Walk to School Program. When I was young, I walked to school 
regularly. In fact, 80 to 90 percent of adults today walked 
regularly to school. Today, less than one-third of children 
walk to school. In part, that is because they lack safe routes 
and in part, it is because communities lack sidewalks and part 
is the absence of neighborhood schools.
    Walking to school is one of the ways that children could 
build physical activity routinely into their day because they 
have to get to school. If they have a safe route to walk to 
school, that is a ready made opportunity for physical activity.
    Mr. Schrock. I walked to school. I would grouse about it 
and my dad would say, when I was your age I used to walk 5 
miles uphill to get to school and 5 miles uphill to get home 
and I bought that for a long time but that is true. That is one 
thing my wife does, she walks several miles every day and she 
wears a thing on her hip and that is an incentive to see how 
high she can get that thing.
    Faith based initiatives and issues have kind of taken hold 
in the last few years. I am wondering if there is a role for 
those kinds of organizations in promoting physical fitness in 
communities and if there are funds available for that sort of 
thing?
    Dr. Dietz. It is a very important opportunity and churches 
have played a major role and there are well documented studies. 
For example, in North Carolina church based initiatives can 
change fruit and vegetable consumption and change physical 
activity levels. I think with appropriate funding that is an 
important opportunity.
    Mr. Schrock. Let me recognize the real chairman, Chairman 
Burton.
    Mr. Burton. I want to apologize for not being here. As I 
said earlier, this is the last day, today and tomorrow, of the 
session before the break and we have been working on homeland 
security. We have been down there fighting over that and what 
kind of amendments are going to be and so forth. I have a 
couple of amendments for the floor tomorrow, so I apologize for 
not being here.
    One of the things that concerns me about the first panel, 
Ms. Ladd, she mentioned the Food and Drug Administration about 
some alternative and complementary therapies that were used 
involving supplements and she said they literally laughed at 
them and said, we don't buy that supplement theory and that 
sort of thing, words to that effect.
    Do you find there is a mindset in any of our agencies, FDA, 
HHS, or CDC, that would indicate that complementary and 
alternative therapies and dietary supplements are not worth a 
darned?
    Dr. Dietz. That is certainly not true at the CDC. She 
mentioned the CDC as the place she called and was greeted with 
guffaws and laughter. I was embarrassed to hear that, first, 
because I think that certainly is not the way my division 
treats callers and second, because it is the agency I work for 
and I am quite proud of it.
    We think there is a very important role for dietary 
supplements and weight loss supplements. As I mentioned 
earlier, we have been pleased to assist the NIH in transferring 
funds to South Carolina to explore the frequency of usage of 
these products.
    Mr. Burton. Have any of the agencies, including CDC, had 
any extensive studies on how supplements affect different 
diseases? Have there been any double blind studies you know of 
that would say large amounts of Vitamin C reduce the risk of 
heart attack or cancer or stroke or any of those things? Have 
there been double blind studies you know of that deal with 
that?
    Dr. Coates. On behalf of the NIH--because it is generally 
more likely that those kind of clinical trial studies would 
emerge from the National Institutes of Health--while I didn't 
go into any detail in my oral testimony, I did provide some 
examples in my written testimony of ongoing and some finished 
studies that have looked at these sorts of things where people 
are randomized to a treatment group and to a placebo group and 
the questions asked are how effective is it, how safe is it?
    So examples of ongoing trials using NIH funds are on Gingko 
biloba for the prevention of cognitive decline in older 
individuals, Echinacea to look at the possibility of prevention 
of colds in children, either prevention or the severity of 
colds. So there are a number of these studies. We think this is 
the right way to do this kind of evaluation so that we can send 
good messages to consumers about issues related to efficacy.
    Mr. Burton. Have you done any studies on any of the 
approaches to medicine that are age old like in China where you 
use acupuncture and other things? Are they doing studies on 
that?
    Dr. Coates. I won't speak for my colleagues in NCCAM or the 
other Institutes, but I do know because we have some areas of 
common interest with NCCAM that they are actively pursuing 
these kinds of things, addressing frontier kinds of medicine or 
age-old traditional medical approaches and trying to evaluate 
them in the context in which they are being used in the United 
States, which in some instances is quite different from the 
traditional ones.
    Mr. Burton. We have had a number of hearings on the health 
care industry and our government agencies, as well as 
supplements and alternative therapies and that sort of thing. 
One feels sometimes that the pharmaceutical industry has a 
tremendous amount of influence because of the grants they help 
with and other things they do in conjunction with our health 
agencies.
    Do you ever feel like sometimes our health agencies are in 
some way being manipulated or controlled by the pharmaceutical 
industry?
    Dr. Coates. I don't have an opinion on that. I don't 
observe it as part of my regular work. I don't know.
    Mr. Burton. But you do know that sometimes people come from 
the pharmaceutical industry and come into government work and 
work in the various health agencies and vice versa, people that 
work in the health agencies will leave and go to work for the 
pharmaceutical companies with very lucrative jobs.
    Dr. Coates. I certainly have seen people moving back and 
forth, yes.
    Mr. Burton. And that would have some influence I think on 
some people?
    Dr. Coates. It might, I don't have an opinion on that.
    Mr. Burton. OK. You are being very political.
    There was a letter published in the Journal of American 
Medical Association last week from Dr. Wayne Jonas about a St. 
John's Wort study. Are you familiar with that letter?
    Dr. Coates. I saw the letter, yes, I did.
    Mr. Burton. What did you think of that?
    Dr. Coates. It is a very reasoned approach. There are 
issues about trial design that always come up. I think he 
alluded in his letter to the fact that the recent funded St. 
John's Wort study in the population that was studied did not 
demonstrate any effectiveness of either St. John's Wort or the 
active drug in reducing the impact of depression in this 
population.
    Part of his comment was that the placebo effect is 
increasingly a complexity of depression oriented trials. I 
don't know how much weight that has but it was certainly 
something that others commented on.
    Mr. Burton. Was that study flawed, do you think?
    Dr. Coates. Studies, if they don't come up with the answer 
that a person wants, that person could think it is flawed. If 
they don't come up with an answer at all, you do begin to 
question whether there was something about the design or the 
followup that may have complicated the interpretation of those 
results. At this point, I can't say.
    Mr. Burton. The staff says they studied major depression 
when St. John's Wort was never supposed to have been used for 
that, only mild and minor depression. Can you explain why they 
did that? I think right on the bottle it says it is not for 
major depression and yet they did include that in the study.
    Dr. Coates. The study population was called major 
depression of moderate severity. These are terms that I am not 
aware everybody can agree on. As an example, this is my 
understanding, I am somewhat peripheral to this argument, but 
in some European studies of St. John's Wort, the criteria that 
were used to enter patients into studies were similar to or 
maybe not very dissimilar from the criteria used to enter 
patients to this recently completed St. John's Wort study.
    That the populations might be called something different 
could be a function of how we define depressive disorders in 
the United States as opposed to their definition somewhere 
else. I am not trying to take the fifth on this, I am trying to 
help to understand why there might be some differences.
    I think it is true that this population had some measures 
of depression that would be considered more severe than people 
would have been interested in seeing. Just as an aside, we in 
the Office of Dietary Supplements along with NCCAM and the 
National Institute of Mental Health are mounting a follow-on 
study in a population that will be defined in a somewhat 
different way but will carry the diagnosis of minor depression. 
It is a tricky diagnosis to make and I think that may have also 
contributed some to the final results.
    Mr. Burton. You know what the DSHEA law is?
    Mr. Coates. Yes.
    Mr. Burton. What do you think about that?
    Dr. Coates. The law was passed in 1994, enacting among 
other things the Office of Dietary Supplements. It asked for us 
to provide a scientific basis, scientific support to better 
inform the American people about the benefits and the risks of 
dietary supplements, to give people the best information 
possible. That is my interpretation of DSHEA. It is how it 
affects me directly and my office.
    Mr. Burton. Do you think that the people at our health 
agencies, HHS and CDC and FDA, feel Congress overstepped its 
bounds in passing the DSHEA law?
    Dr. Coates. I can't speak for others.
    Mr. Burton. How about you?
    Dr. Coates. I think this is a law that presented a very 
worthy opportunity and in 1994, it was an excellent piece of 
legislation to try to deal with an emerging area of use in the 
population. I think--this is a personal opinion for which 
nobody else should take blame or credit--that it is not a bad 
idea periodically to reexamine where we are with a piece of 
legislation. I am not a legislator so I can say that.
    Mr. Burton. What do you think about today, 8 years later?
    Dr. Coates. I think we have demonstrated that there is 
plenty of room for the use of dietary supplements in a host of 
different conditions. I also think that people in some sectors 
have used it as an opportunity to be able to market in an area 
that was beyond what was intended by DSHEA. If DSHEA was 
intended to provide products that people could use for health 
promotion, then it is perhaps a stretch to market products for 
disease treatment.
    Mr. Burton. Such as obesity, like ephedra?
    Dr. Coates. That is a tricky one, sir.
    Mr. Burton. The reason I bring up ephedra is because the 
ephedra issue, we have had some discussions with people in our 
health agencies and a lot of companies have used synthetic 
ephedra and it has caused severe problems. Non-synthetic 
ephedra when used in proper doses as shown on the bottle and 
the inserts has minimal side effects.
    There was a study done by Harvard and Columbia Universities 
which I believe has been published now in the International 
Journal of Obesity and they tried to get it published in some 
others but they ran into some problems. That study which we 
have looked at pretty thoroughly showed it wasn't a big 
problem.
    I know that our health agencies are doing another study on 
that right now. You are managing that study now?
    Dr. Coates. The Office of Dietary Supplements and the 
National Center for Complementary and Alternative Medicine 
sponsored the development of an evidence report by the RAND 
Corp. They do that under contract to AHRQ.
    Mr. Burton. That is going on right now.
    Dr. Coates. That is going on now.
    Mr. Burton. Do you think the study that was done and 
published that came out of Columbia and Harvard was flawed? Why 
are we seeing another study being done? I am just curious.
    Dr. Coates. This was one of the very first randomized, 
clinical control trials of an ephedra-containing and caffeine-
containing product used for weight management or weight loss, 
one of the very first randomized placebo-controlled trials. So 
it is significant that it was.
    As is true of most studies like this, it was done in a 
population of very-well defined and characterized subjects in 
whom potential risk factors for the development of some side 
effects were excluded. That is a good thing. You don't wish to 
embark on a clinical trial for weight loss where you put 
subjects at increased risk. So what I would say is, on the 
basis of that study, the results are promising but the results 
of that trial relate to a population so described, monitored 
carefully over 6 months. Over 6 months they experienced weight 
loss that was comparable to weight loss that could have been 
obtained through other pharmacologic means. That is 
encouraging. It was also encouraging that there were no 
evidence safety problems.
    I have to keep reminding myself that in the context of a 
randomized control trial, your job is to do the very best you 
can to monitor and prevent potential side effects in a 
population like that. Therefore, I think we have to limit our 
enthusiasm. I limit my enthusiasm for the results of the study 
to a similarly described population and would need to have more 
information in order to be certain that people who are using 
this in the context of weight loss in their communities, walk 
into a store and buy it, they are not being monitored by a 
physician.
    Remember this randomized control trial was done under the 
control of a number of physicians. It is a somewhat different 
circumstance. We should be encouraged but I also maintain some 
caution.
    Mr. Burton. Individuals buy aspirin and all kinds of 
products and if they don't read the label, and I have been 
guilty of that from time to time, taking more things than I 
should have or less and finding out they didn't work. I am 
talking about pharmacological products.
    Dr. Coates. I agree with you.
    Mr. Burton. So we can't control everything a human being 
does. They have to be responsible themselves and if there is a 
dietary supplement or a prescription drug, they have to read 
what they are supposed to do or else they put themselves at 
risk. That study, as you said, didn't appear to be flawed and 
we hope when the results of the study you are doing come out, 
it isn't skewed in such a way that it is designed to change the 
outcome specifically because they want to see us move toward 
pharmacological products instead of natural products like 
natural ephedra.
    Dr. Coates. I will make one reminder, sir. We commissioned 
that report because we wanted to determine what the next 
research steps needed to be in terms of ephedra.
    Mr. Burton. Not to discredit the other report?
    Dr. Coates. Not at all. In fact, the Boozer study to which 
you referred and published in the International Journal of 
Obesity is one of the studies being systematically reviewed in 
the report that is being developed by the RAND Corp.
    To clarify one thing, this is not a brand new clinical 
study, this is a meta-analysis of existing studies that relate 
to ephedra efficacy and safety.
    Mr. Burton. Let me end by saying I hope the health agencies 
continue to look at alternative and complementary therapies as 
well as dietary supplements as a help to people to help cut 
down the overall cost of medical care and the cost to the 
government for medical care.
    I hope there is not an attempt to circumvent or change the 
DSHEA law. If there is need to change the law, people like you 
who have expertise I hope will come to the U.S. Congress and 
talk to laymen like me who have been interested in the subject 
for a long time and explain why there is a need to change that 
so we can try to work together to get that done in a way that 
is very responsible.
    We have an awful lot of jobs and people who make their 
living in the private sector through the supplement industry. I 
believe the supplement industry has helped a great deal as far 
as health is concerned. So I hope we have a good working 
relationship and that if there is need for change, it is done 
in the proper way and not with our health agencies trying to 
circumvent what Congress decided.
    Dr. Coates. I would be pleased to talk with you in more 
detail about that at your request. We have also found that the 
dietary supplement industry has been a valuable partner in 
trying to move forward research activities, that they have not 
interfered with our activities, they try to be effective 
partners with us in some aspects of those things where they 
really do have expertise.
    Mr. Burton. Beth just told me that we have not yet fully 
implemented or health agencies have not yet fully implemented 
the DSHEA law and until that is done, we probably wouldn't be 
of a mind to change it anyhow but once it is completely 
implemented, if there is flaws, we will try to get those 
corrected.
    Mr. Schrock. Thank you, Mr. Chairman.
    Thank you for your testimony and the discussion. It has 
been very helpful. I think this whole day has been helpful 
because this is an issue that should be important to every 
single Member of Congress, every single staff member because it 
impacts so much of what we do up here.
    Mr. Burton. I don't know if you were here earlier. My wife 
died of metastatic colon cancer on May 10. One of the things I 
hope our health agencies will do has nothing to do with the 
present subject, is to illuminate the need for people above 40 
or 50 to have colonoscopies and other preventative measures to 
prevent death or severe health problems.
    Had my wife's doctor told her to get a colonoscopy, she 
would be here today. I am convinced of that. They didn't. When 
she started having some minor symptoms, they just gave her 
pills. I am not so sure the medical profession, all of them, 
are aware of how important things like colonoscopies are. So if 
our health agencies could send out a circular when you do a 
mailing or whatever you do to inform the AMA or doctors, tell 
them how important some of these preventive measures are, it 
would be appreciated by not only me but I am sure thousands 
across the country that might be saved because of that.
    You guys can do a lot in addition to making sure we get the 
right prescriptions and the right drugs to make sure people are 
informed about how important preventive measures like 
colonoscopy are.
    Mr. Schrock. I agree with that. I wish we could somehow 
legislate people to get physicals every year. I hate to say it, 
but the male is worse than anybody else. We need to make sure 
we do that. You heard his story. Mine was caught early. I am 
blessed it was but so many times it gets so far down the pike, 
there is nothing you can do about it.
    Thank you very much for your testimony. Thank you for being 
here.
    This hearing is now adjourned.
    [Whereupon, at 3:09 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Henry A. Waxman, Hon. 
Edolphus Towns, and Hon. Carolyn B. Maloney, and additional 
information submitted for the hearing record follow:]
[GRAPHIC] [TIFF OMITTED] 81866.098

[GRAPHIC] [TIFF OMITTED] 81866.099

[GRAPHIC] [TIFF OMITTED] 81866.100

[GRAPHIC] [TIFF OMITTED] 81866.101

[GRAPHIC] [TIFF OMITTED] 81866.102

[GRAPHIC] [TIFF OMITTED] 81866.103

[GRAPHIC] [TIFF OMITTED] 81866.104

[GRAPHIC] [TIFF OMITTED] 81866.105

[GRAPHIC] [TIFF OMITTED] 81866.106

[GRAPHIC] [TIFF OMITTED] 81866.107

[GRAPHIC] [TIFF OMITTED] 81866.108

[GRAPHIC] [TIFF OMITTED] 81866.109

[GRAPHIC] [TIFF OMITTED] 81866.110

[GRAPHIC] [TIFF OMITTED] 81866.111

[GRAPHIC] [TIFF OMITTED] 81866.112

[GRAPHIC] [TIFF OMITTED] 81866.113

[GRAPHIC] [TIFF OMITTED] 81866.114

[GRAPHIC] [TIFF OMITTED] 81866.115

[GRAPHIC] [TIFF OMITTED] 81866.116

[GRAPHIC] [TIFF OMITTED] 81866.117

[GRAPHIC] [TIFF OMITTED] 81866.118

[GRAPHIC] [TIFF OMITTED] 81866.119

[GRAPHIC] [TIFF OMITTED] 81866.120

[GRAPHIC] [TIFF OMITTED] 81866.121

[GRAPHIC] [TIFF OMITTED] 81866.122

[GRAPHIC] [TIFF OMITTED] 81866.123

[GRAPHIC] [TIFF OMITTED] 81866.124

[GRAPHIC] [TIFF OMITTED] 81866.125

[GRAPHIC] [TIFF OMITTED] 81866.126

                                   - 

</pre></body></html>
